<html>
<title> - THE BAKKEN: EXAMINING EFFORTS TO ADDRESS LAW ENFORCEMENT, INFRASTRUCTURE AND ECONOMIC DEVELOPMENT NEEDS</title>
<body><pre>[Senate Hearing 113-587]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-587

                    THE BAKKEN: EXAMINING EFFORTS TO
                    
 ADDRESS LAW ENFORCEMENT, INFRASTRUCTURE AND ECONOMIC DEVELOPMENT NEEDS
=======================================================================


                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                       
 MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                              
                         HOMELAND SECURITY AND
                         
                          GOVERNMENTAL AFFAIRS
                          
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                    FIELD HEARING IN SIDNEY, MONTANA

                               __________

                           SEPTEMBER 26, 2014

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
                                   ______

                      U.S. GOVERNMENT PUBLISHING OFFICE 

92-906 PDF                   WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                  Gabrielle A. Batkin, Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


SUBCOMMITTEE ON EMERGENCY MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND 
                        THE DISTRICT OF COLUMBIA

                      MARK BEGICH, Alaska Chairman
CARL LEVIN, Michigan                 RAND PAUL, Kentucky
MARK L. PRYOR, Arkansas              JOHN MCCAIN, Arizona
MARY L. LANDRIEU, Louisiana          ROB PORTMAN, Ohio
JON TESTER, Montana                  MICHAEL B. ENZI, Wyoming
HEIDI HEITKAMP, North Dakota
                     Pat McQuillan, Staff Director
                Brandon Booker, Minority Staff Director
                       Kelsey Stroud, Chief Clerk
                       
                       
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Tester...............................................     1
Prepared statement:
    Senator Heitkamp.............................................    59

                               WITNESSES
                       Friday, September 26, 2014

Hon. A.T. Stafne, Chairman, Assiniboine and Sioux Tribes of the 
  Fort Peck Reservation..........................................     3
Hon. Angela McLean, Lieutenant Governor, State of Montana........     5
Leslie Messer, Executive Director, Richland Economic Development 
  Corp...........................................................     6
Hon. Rick Norby, Mayor, Sidney, Montana..........................     7
Hon. Michael W. Cotter, United States Attorney, District of 
  Montana, U.S. Department of Justice............................    19
Michael K. Gottlieb, National Director, High Intensity Drug 
  Trafficking Areas (HIDTA) Program, Office of National Drug 
  Control Policy.................................................    21
Scott Vito, Assistant Special Agent in Charge, Salt Lake City 
  Division, Federal Bureau of Investigation......................    23
Hon. Tim Fox, Attorney General, State of Montana.................    25
Hon. Craig Anderson, Sheriff, Dawson County, Montana.............    28
Anthony J. Preite, Rural Development State Director for Montana, 
  United States Department of Agriculture........................    40
Mike Tooley, Director, Montana Department of Transportation......    41
John K. Dynneson, Deputy Sheriff, Richland County Sheriff's 
  Department.....................................................    44
Paul Groshart, Director, Richland County Housing Authority.......    46
Loren Young, Chairman, Richland County Commission................    48

                     Alphabetical List of Witnesses

Anderson, Hon. Craig:
    Testimony....................................................    28
    Prepared statement...........................................   100
Cotter, Hon. Michael W.:
    Testimony....................................................    19
    Prepared statement...........................................    81
Dynneson, John K.:
    Testimony....................................................    44
    Prepared statement...........................................   110
Fox, Hon. Tim:
    Testimony....................................................    25
    Prepared statement...........................................    96
Gottlieb, Michael K.:
    Testimony....................................................    21
    Prepared statement...........................................    86
Groshart, Paul:
    Testimony....................................................    46
    Prepared statement...........................................   114
McLean, Hon. Angela:
    Testimony....................................................     5
    Prepared statement...........................................    75
Messer, Leslie:
    Testimony....................................................     6
    Prepared statement...........................................    78
Norby, Hon. Rick:
    Testimony....................................................     7
    Prepared statement...........................................    79
Preite, Anthony J.:
    Testimony....................................................    40
    Prepared statement...........................................   102
Stafne, Hon. A.T.:
    Testimony....................................................     3
    Prepared statement...........................................    62
Tooley, Mike:
    Testimony....................................................    41
    Prepared statement...........................................   107
Vito, Scott:
    Testimony....................................................    24
    Prepared statement...........................................    94
Young, Loren:
    Testimony....................................................    48

 
                    THE BAKKEN: EXAMINING EFFORTS TO

                        ADDRESS LAW ENFORCEMENT,

             INFRASTRUCTURE AND ECONOMIC DEVELOPMENT NEEDS

                              ----------                              


                           SEPTEMBER 26, 2014

                               U.S. Senate,        
              Subcommittee on Emergency Management,        
                         Intergovernmental Relations,      
                          and the District of Columbia,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Rick Norby, Mayor, come on up and sit at 
this table. Good to see you. And the rest of you, if you could 
just grab a seat real quick, we are going to get going. This is 
liable to be a fairly long hearing. We have three panels of 
great witnesses and then there will be some questions and 
hopefully some opportunity for folks to visit with one another 
as this goes on; but before we get started, I would like ask 
those of you that can stand, please stand and join me in the 
Pledge of Allegiance.
    [Whereupon, Pledge of Allegiance is recited.]
    Good morning. I am going to call this to this hearing to 
order of the United States Subcommittee on Efficiency and 
Effectiveness of the Federal Workforce and Federal Programs. 
Today's hearing is titled, ``The Bakken: Examining Efforts to 
Address Law Enforcement, Infrastructure and Economic 
Development Needs''. We are fortunate to have assembled three 
terrific panels of subject matter experts to speak to law 
enforcement, infrastructure and economic challenges of 
communities within the Bakken. These folks will provide local, 
regional, State, tribal and national perspective on critical 
issues. By engaging stake holders at each level of government, 
I am hopeful that we will identify the most pressing needs of 
these communities as well as some much needed solutions. I want 
to thank each of our witnesses that are here today and I look 
forward to our discussion.
    The Bakken formation has emerged in recent years as one of 
the most critical sources of oil in the United States. As a 
result, we are seeing things in Eastern Montana/Western North 
Dakota that we have never seen before, both good and bad. It is 
a story of rapid and dramatic flood of workers, families and 
wealth into an area that is providing an economic boom for 
local businesses and communities, but it is also a story of 
local communities left scrambling for scarce resources to meet 
urgent infrastructure and housing needs of a largely transient 
workforce, and the struggle of those communities to address 
immediate needs without doing significant harm to the longtime 
residents making a fraction of an oil worker's salary; folks in 
the community like police officers, social workers and school 
teachers. It is the story of local law enforcement agencies 
stretched thin, yet facing unprecedented threats in the sheer 
number and complexity of increasingly violent crimes; increased 
rates of human trafficking, drug smuggling and criminal 
byproducts of drug cartel targeting the large paychecks of oil 
workers. In more human terms, it is the story of a young family 
living with her six children in a camper for 20 months because 
of the scarcity of quality affordable housing; and it is the 
story of a beloved high school math teacher, a mother of two, 
who was abducted while in a morning jog and subsequently 
murdered by individuals who were allegedly drugged out of their 
minds. These stories do not reflect who we are or where we 
live. Sure, we have a number of significant challenges before 
us, but I know many of these witnesses, and I know many of the 
folks in this community, they are doing absolutely everything 
that they can do to make sure that this is even a better place 
to live. Today, I hope this hearing can identify additional 
ways we can contribute to that effort, whether it is 
highlighting various proposals to address the region's most 
urgent needs or addressing how we can improve upon the 
collaborative efforts of local, tribal and Federal officials. 
With that, I ill keep my opening remarks brief. We have a 
number of very good witnesses here, a lengthy list of critical 
issues to discuss, and I want to thank everyone for being here 
today.
    We will start with our first panel. The first panel will 
set the stage by laying out a broader economic development 
challenges in the Bakken; the second panel is going to speak 
more specifically to law enforcement challenges that have 
arisen in recent years; and the third panel will speak to 
critical infrastructure needs in the region.
    First, we have A.T. Stafne who is serving in his third term 
as Chairman of the Fort Peck Tribal Executive Board. In 2011, 
Rusty was appointed by Governor Brian Schweitzer to the Montana 
Fish, Wildlife and Parks Commission. He was the first American 
Indian appointed to that commission. Rusty is a member of the 
Assiniboine and Sioux Tribes of the Fort Peck Reservation, an 
Army veteran from the Korean War. Thank you for your service, 
Rusty; thank you for being here; and I look forward to your 
testimony.
    Then we have Lieutenant Governor Angela McLean. She was 
previously an adjunct professor at Montana Tech in Butte. She 
also served as Chair of the Montana Board of Regions and on the 
Montana Board of Public Education before becoming Lieutenant 
Governor of the great State of Montana. Angela has developed 
Montana SMART schools, an initiative whose goal is to reduce 
energy usage in schools and save taxpayer dollars. She also 
chairs the Montana Governor's Drought and Water Supply Advisory 
Committee. Angela, as always, it is great to see you; thank you 
for being here.
    Leslie Messer is the Executive Director of the Richland 
Economic Development Corp. During her tenure as Executive 
Director, Leslie has actively recruited businesses, pursued 
business expansion and retention projects for Richland County. 
Some of these victories include recruiting Anheuser-Busch malt 
barley handling facility as well as the Nation's largest crane 
service company. Leslie, always good to see you; thank you for 
being here and we look forward to your testimony also.
    And finally, we have Mayor Rick Norby, Mayor of Sidney 
since January of this year. He previously served as Councilman 
for Ward 3. In his capacity as mayor, Rick has been on the 
frontlines facing the challenges of rapid growth in the Bakken 
and seeking ways to overcome various economic development and 
infrastructure challenges that have arisen from the rapid 
growth. Previously, Rick worked on a family farm before 
focusing his energy on starting a business, Norby Repair, 
almost 15 years ago. Thank you for being here, Rick.
    With that, I think we will start out and what we typically 
do in these hearings is your entire written statement will be 
part of the record. Your testimony, if you could keep it to 5 
minutes would be great. I have a boatload of questions to ask 
you guys and they are all easy that you can answer, but the 
truth is I want to get that information on the record, too, so 
Chairman Stafne, would you please get us started, and if I 
start rattling that means you might want to wind it down. 
[Laughter.]

  TESTIMONY OF HON. A.T. STAFNE,\1\ CHAIRMAN, ASSINIBOINE AND 
           SIOUX TRIBES OF THE FORT PECK RESERVATION

    Mr. Stafne. Yes, Senator Tester, good morning and thank 
you. Do I need this?
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stafne appears in the Appendix on 
page 62.
---------------------------------------------------------------------------
    Senator Tester. Yes, you will need that for the clerk so we 
can get your testimony.
    Mr. Stafne. OK. From our perspective as an Indian nation 
immediately adjacent to the unprecedented oil development in 
the Bakken, we welcome opportunities to improve the conditions 
on our Reservation, including responsible sustainable and 
culturally sensitive natural resource development, but we 
cannot promote responsible development without adequate 
services, infrastructure and sources of capital. Senator 
Tester, we know you understand this. Thank you for your recent 
response to the National Northern Border Counternarcotics 
Strategy Report, which confirmed the lack of resources in 
Indian Country. We appreciate your commitment to the continued 
work of bringing more attention and resources to the Northern 
border and the Bakken so our communities are safe and our 
quality of life is strong. The Fort Peck Tribes and our 
partners in the region have been leaders in enhancing 
communication and collaboration to address our lack of 
resources. We have forged positive relationships with our 
neighbors. We were one of the first tribes in the Nation to 
enter into a cross--deputization agreement with State and local 
law enforcement agencies. This revolutionary agreement is a 
model for effective policing in Indian Country. In addition, we 
jointly operate a 9-1-1 emergency dispatch center with 
Roosevelt County, pooling our resources to eliminate the 
duplication of services; and together with our partner, Dry 
Prairie Rural Water, we are constructing a highly efficient 
regional water system and will soon be delivering quality water 
from our treatment facility on the Reservation to approximately 
75 percent of the population of Northeast Montana. There is 
perhaps no better model for cooperation or communication than 
exists between the Fort Peck Tribes and our neighbors.
    Now, we need Congress to fill its mandatory trust 
responsibility to Indian nations to supply necessary resources 
to make our communities safe. The conditions on our Reservation 
are poor. Half of our people live below the Federal poverty 
level, and our residents have the poorest health in Montana. 
What's worse, we are now experiencing dramatically rising 
social problems and criminal activity like methamphetamine and 
prescription drug abuse. This surge in crime has reversed a 
downward trend we worked so hard to achieve. Our law 
enforcement estimates that nearly 80 percent of criminal 
conduct on the Reservation has a drug component.
    In order to combat this epidemic, we have an immediate need 
for six additional drug enforcement officers. I urge the 
Department of Homeland Security (DHS) and other Federal 
agencies to work with tribes by promptly providing funds and 
equipment to our Bakken-affected communities using instruments 
like self-determination contracts to ensure swift receipt of 
the resources we desperately need.
    Adequate infrastructure is also vital to whether conditions 
in our region improve or deteriorate. Federal appropriations 
for rural water systems, transportation systems and health, 
wellness and public safety facilities make the difference 
between success and failure because community stability creates 
an environment for economic development.
    In addition to services and infrastructure, Indian Country 
needs a source of capital for economic development to cross 
reservation boundaries. Grant and loan programs provide 
necessary bridges to help communities in transition, but tribes 
also need the flexibility to pool Federal funds from multiple 
agencies to carry out locally designed economic development 
programs without conflicting rules and restrictions. The 
Department of Health and Human Services (HHS) four-step 
descending model, or the proposed NASDA Amendments, could 
become the model for Federal funding. We encourage you to 
consider a pilot project that allows tribes to pool funds from 
various sources to address growing needs relating to the 
Bakken.
    Finally, Congress must eliminate the problem of dual 
taxation in Indian Country created by the 1989 U.S. Supreme 
Court decision in Cotton Petroleum vs. New Mexico. This double 
taxation creates a serious barrier for development on tribal 
lands and is inconsistent with Federal policies designed to 
promote tribal development in self-sufficiency.
    Thank you for the opportunity to share our perspective. We 
look forward to working with you to pay more attention to 
resources to our region so our communities are safe and our 
quality of life can be strong; thank you.
    Senator Tester. Thank you, Chairman Stafne. I appreciate 
your perspective. Lieutenant Governor McLean, you're up.

TESTIMONY OF HON. ANGELA MCLEAN,\1\ LIEUTENANT GOVERNOR, STATE 
                           OF MONTANA

    Ms. McLean. Good morning, and thank you Senator Tester for 
the opportunity to testify before you this morning. Development 
in the Bakken region has presented tremendous economic 
opportunities for Eastern Montana, but with those opportunities 
come challenges. Governor Bullock was helping to address those 
challenges long before he became Governor. As Attorney General, 
he instituted the first cross-border jurisdiction with North 
Dakota; and as governor, when the legislature refused to fund a 
public safety initiative in Eastern Montana Governor Bullock 
worked with Chief DiFonzo to hire two new drug agents out of 
discretionary funds. Our administration intends to continue to 
fund those Division of Criminal Investigation (DCI) agents.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. McLean appears in the Appendix on 
page 75.
---------------------------------------------------------------------------
    We are also assisting oil and gas impacted schools. The 
Wibaux School District, for example, was awarded $900,000 this 
year to assist in construction of a new building, among other 
things, and development impacted schools have received a total 
of $11.5 million dollars in assistance this year alone.
    Additionally, Miles, Dawson and Fort Peck Community 
Colleges have received over $2.5 million dollars to address 
workforce challenges in Eastern Montana. As part of the Main 
Street Montana Project, Governor Bullock announced a plan to 
assist the impacted counties in Eastern Montana. The reduction 
SRF Loan interest rates are already saving water and sewer rate 
payers $29 million dollars this year alone; and as soon as the 
legislature approves the plan, the $45 million dollar grant 
program will get money where it is needed most in the cities, 
towns, counties and tribal governments; but it is not just 
monetary assistance that we are providing. We are mobilizing 
rapid response teams.
    These teams are composed of the best people from Commerce, 
the Department of Environmental Quality (DEQ) and DNRC and 
customized to meet the needs of each community across Eastern 
Montana. Existing programs such as CDBG and TSEP help counties 
and local governments fund infrastructure, public safety and 
housing projects. There are also multiple infrastructure loan 
and financing programs including the Commercial Loan 
Participation Program; the Infrastructure Loan Program; the 
Value Added Loan Program; and the INTERCAP Loan Program. 
Additionally, Senator Tester, there are programs that are 
designed to help communities with housing issues; the HOME 
Investment Partnership Program; Section 8 Program; Home 
Ownership Program; and Housing Tax Credit Program serve to help 
mitigate affordable housing needs across Eastern Montana. 
Programs such as the Community Technical Assistance Program 
(CTAP) work with local governments, officials, planners, 
developers and the public to help communities address the 
impacts of development and population growth by providing 
technical assistance through the sharing of professional 
knowledge, conducting workshops and providing templates, 
publications and research materials. Since Governor Bullock 
took office, we have awarded funding to numerous projects in 
Eastern Montana including a $450,000 grant to the City of 
Bainville right here in Richland County for a water project. 
These are just a few examples of the grant funding and 
investments that Governor Bullock's administration has made in 
Eastern Montana. The total amount of funding allocated for the 
2013 and 2015 biennia to oil-impacted counties in Eastern 
Montana totals over $57 million dollars.
    Senator Tester, I want to thank you once again for the 
opportunity to be a part of this very important conversation 
among local, State, tribal and Federal partners.
    Senator Tester. Thank you Lieutenant Governor.
    Next we have Leslie Messer. Leslie.

  TESTIMONY OF LESLIE MESSER,\1\ EXECUTIVE DIRECTOR, RICHLAND 
                ECONOMIC DEVELOPMENT CORPORATION

    Ms. Messer. I also would like to thank you for the 
opportunity to give you a little insight on what's going on 
here. As you all know, we all do the very best we can with the 
education and the resources that we have available to us. 
Economic development is no different than the law enforcement 
or anyone else, and so we are just going to give you a brief 
look on how this goes. The current economy overall in Richland 
County right now is very robust, it is very busy. Our labor 
force is scrambling; our unemployment right now is 2.1 percent, 
and this results in extreme stress and pressure on our downtown 
businesses as the oilfield draws workforce away from those 
downtown jobs that have always been there. The employers are 
having to be very creative in how they are going to circumvent 
this issue. They are putting in their own housing; they are 
offering different incentives; limiting their office hours and 
the services; all to keep moving forward and providing for 
their own business success and families. We are doing the best 
we can to keep the information out there so that we can work 
together with State, local and Federal agencies to get the word 
out and to continue to do business as usual. We launched a 
website that we put all types of information to educate and 
inform the public about what's going on. This site has had over 
a 1,000 hits a week. People want to know how much it costs to 
be here; what it is like to work and live here. We created 
through the investment of our revolving loan fund from our 
county commissioners the million dollar phone, or loan fund, we 
have been able to provide gap financing to continued 
businesses, entrepreneurs and existing businesses. We have 71 
jobs tied directly to that in the throes if all this business. 
Our office continues to conduct consultations with over 60 
engineers and developers and consultants and entrepreneurs all 
wanting to see what it is like and if they might be able to 
grab a hold of a piece of this opportunity.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Messer appears in the Appendix on 
page 78.
---------------------------------------------------------------------------
    We have created informational presentation that we have 
taken across this State to 60 different times in the last 3 
years to educate and inform people of exactly what the needs 
are in our area. We have also held instructional and 
informational tours for State, legislative and congressional 
leaders to bring them in here and let them see this firsthand 
on what exactly is thriving and working and challenges are 
here. We have also held two Canadian trade missions. We create 
and participate in an Eastern Montana Impact Coalition to 
address the impacts to the 16 counties of Northeastern Montana 
and what we are facing. We are in the final stages of that 
impact study. That will hopefully give us a better picture so 
that we can take that to the legislature.
    Our office has surveyed our residents and our contributing 
members on the services and the needs of Richland County, and 
the top five priorities are infrastructure, housing, workforce, 
lack of daycare and childcare providers as well as additional 
restaurants. We have recruited, most recently to Richland 
County, an immediate and temporary housing provider to try to 
be able to carry some of that load while the stick-built 
developments are being built. We created a cost analysis to 
take an actual look at the numbers, and while we are ranked 
third highest in our region, our market is considerably 
different when we are compared with Billings, Bozeman, Denver; 
it is extremely different; and we work collaboratively with 
Miles City and Dawson Community College to try to assess those 
workforce demands and needs and how we might best tailor a 
curriculum to the ever-changing robust challenges.
    And finally, we have also worked and advocated very hard on 
the Lower Yellowstone Irrigation Project with the efforts they 
are taking to address the Pallid Sturgeon, the endangered 
species, and the effects that if that irrigation project were 
to go down, the negative impacts on this economy would be just 
tremendous.
    So basically, our current and future challenges are our 
infrastructure is aging and it is at capacity, which requires 
immediate additional funding resources; we have a lack of 
workforce, which goes hand-in-hand with the housing. The 
housing that is available is being utilized by the oilfield, 
but as it has been stated before, that makes it very difficult 
for the clerks and the teachers and the police and the county 
force; and the constraints to financing for additional projects 
is very difficult because the populations that are coming in 
are showing that they have less than stellar credit, which 
makes it very hard to support them.
    I want to thank you for, again, for this opportunity and I 
urge you to utilize whatever power and influence you have to 
invest additional resources here, not only for the success of 
Richland County, but for the improvement of the entire State of 
Montana; thank you.
    Senator Tester. Thank you, Leslie.

    TESTIMONY OF HON. RICK NORBY,\1\ MAYOR, SIDNEY, MONTANA

    Mr. Norby. I would also like to thank you, Senator Tester, 
for inviting me here today. I will probably be the first one 
you use the gavel on. It is really hard for me to keep my stuff 
under 5 minutes.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Norby appears in the Appendix on 
page 79.
---------------------------------------------------------------------------
    Senator Tester. Thanks for the warning.
    Mr. Norby. I have only been Mayor for a short time in 
Sidney, less than a year, but I served on City Council for 6 
years prior, and I can say the largest concern that my 
administration has is for its citizens.
    Senator Tester. Is what now?
    Mr. Norby. Is for its citizens.
    Senator Tester. OK.
    Mr. Norby. A simple singular concern that encompasses so 
many avenues. The City of Sidney and its neighboring 
communities are expecting growth at a higher rate, and we are 
all struggling to meet the priorities that make up--at the tone 
of a small Montana town. Safety, affordable living and 
community activities are what draws people to live in our 
communities over the larger oil boom in North Dakota is 
offering. We are a place to raise a family, not just work and 
sleep. In order to maintain this type of community, the City of 
Sidney and its neighbors are working diligently to bring in 
more police and even Federal funding units such as the Drug 
Enforcement Administration (DEA), DCI and the Federal Bureau of 
Investigation (FBI). As mayor, I know that having a safe 
community that my citizens can walk freely in is important to 
my constituents. Since Sherry Arnold's tragic murder, it has 
been an uphill battle to give the feeling of safety back to the 
community. With the collaboration of all agents, local, State 
or Federal, we are following any backpack feeling, maintaining 
safety in a place that can easily get out of hand fast is 
imperative to the entire nation, keeping the agents that are 
stationed here to aid is required.
    Housing is a constant discussion being had for the area. 
Affordable housing is almost nonexistent, and if it is 
affordable it is not livable. Apartments are what is being 
mostly developed in Sidney, but they are not the only answer. 
Even with new apartments going up to help with the constant 
need, the prices are still not going down. To rent a 2 bedroom 
apartment in Sidney you could be paying upwards of $2,100 a 
month. This causes multiple people to pile into the same 
apartment just so they can afford to live here. The shelters in 
Sidney are constantly overloaded due to people not being able 
to afford the establishments currently provided. I believe the 
answer to this is to develop more single-family homes to help 
equal out the housing costs in the area. The single family home 
is also meant for people to buy not rent, increasing the long-
term citizens to the area that will bring in families, not just 
workers, which will increase the number of workers in the area 
for non-oilfield jobs and bring more consistent population.
    Housing is not the only large cost to the area at the 
moment. We are experiencing higher costs of living than any 
other areas. The increase in big oilfield jobs can cause price-
gouging on all fronts, including groceries, recreational 
activities and basic living needs. The high-paying jobs have 
increased the per cap income in Richland County by 29.5 percent 
since 2012, according the Montana Local Government Profiles. 
This means the rates are forced to increase based on target 
rates as provided by the State. When rates increase, the cost 
to provide goods increase and prices are raised. Most of the 
higher retailers are from the pump to the grocery line. This is 
causing many long-term citizens who would have taken their last 
breaths in Sidney, pack up and move to more affordable 
communities.
    Higher wages are also getting long-term employees hired 
next to impossible. The City of Sidney starts our public works 
department laborers at $18.00 an hour, which is a pretty good 
wage until you compare it to the average non-educated oilfield 
position starting wage at $25.00. How do small businesses 
afford to pay the increase in wages as demanded due to the oil 
boom? They raise rates. They raise their prices, sorry, which 
in turn cancels any increase in wage that is possible. The City 
of Sidney gave a 3 percent cost of living wage increase to all 
employees this year, but we also had a 200 percent sewer 
increase, which canceled most of the employees monthly wage 
increase.
    If you look at the impact the oil boom has on basic 
citizens in Sidney and surrounding area, it is substantial. 
They are now in a daily struggle to maintain their way of 
living in order to stay in their hometown. The City of Sidney 
does not want to lose its citizens or replace them with new 
ones. We want to focus on expanding the City and its area while 
maintaining everything our predecessors fought for. We want to 
see the old mingle with the new and create a better place to 
live. We do not want to be the better community of the Bakken, 
we want to be its hometown. In order to accomplish any of this, 
we need everyone to see it as we see it; it is the best place 
to live.
    We cannot accomplish this if we do not get some help. The 
Bakken is about utilizing its natural resources, people need to 
realize that. We cannot capitalize on the Bakken until we 
utilize the surrounding area. Thank you again, Senator Tester.
    Senator Tester. Well, thank you, Mayor; and thank you all 
for your testimony. I very much appreciate the perspective and 
I appreciate the time you put in for your testimony. We are 
going to start out with an easy question that's kind of 
difficult, and that is each one of you brings a different 
perspective to the table. In your opinion, if you were going to 
say 'This is my most pressing need', what would it be? We will 
start with you Chairman Stafne. What is the most pressing need 
that you have up in Fort Peck?
    Mr. Stafne. Well, Senator, we really have very many 
pressing needs, but one thing that would certainly help would 
be funding.
    Senator Tester. OK, go ahead, Lieutenant Governor.
    Ms. McLean. Thank you, Senator Tester, and thank you fellow 
panelists for remarkable testimony. Infrastructure is what we 
need, and I think I heard that here; and we need infrastructure 
to grow and to sustain that growth now and into the future, and 
we articulated a plan for a $45 million dollar grant fund to 
impact that sustainable growth here in Eastern Montana. We need 
legislative assistance to make sure that becomes a reality, and 
with that legislative assistance we could provide that help 
that you so desperately need to attract and retain businesses; 
to attract and retain quality teachers; and ultimately ensure, 
Mr. Mayor, that this is not the bedroom community to the 
Bakken.
    Senator Tester. Real quick, before, Leslie, you take the 
mic, I have just got a quick followup for you
    Lieutenant Governor, and that is infrastructure and the $45 
million dollar program you talked about, what's going to be 
eligible for that $45 million, is it going to be sewer, water, 
housing, what's all eligible?
    Ms. McLean. Absolutely. Water and waste water districts 
will be eligible. Additionally, 10 percent of those resources, 
$4.5 million dollars, will be available to meet public safety 
needs for Eastern Montana cities, town and tribal communities.
    Senator Tester. I have you; and then one last question 
because I think it is important. Who is eligible?
    Ms. McLean. We have a Tier I, Tier II and Tier III county/
region across the Eastern Montana map, and I would be happy to 
provide you with each of those----
    Senator Tester. OK, to get more specific, and you may have 
addressed this in your testimony and I may have missed it, are 
tribes eligible?
    Ms. McLean. Absolutely.
    Senator Tester. Are municipalities eligible?
    Ms. McLean. Yes.
    Senator Tester. Are non-incorporated towns eligible?
    Ms. McLean. Yes.
    Senator Tester. Good. Thank you. Leslie, we will get back 
to the original question, and that is what in your--as an 
economic development in Richland County, what's the most 
pressing?
    Ms. Messer. The most pressing need from economic 
development is the ability to grow. Our office is the one that 
answers the door to opportunity. We are the one that is the 
marketing agent saying 'Come be here; live here; work here'.
    Senator Tester. Yes.
    Ms. Messer. And we cannot continue to grow or thrive if 
there's not enough places to flush the toilet; if we do not 
have a enough places to live; if the law enforcement cannot 
adequately handle that; those are the most pressing. People 
come in, those developers come in from North Dakota, and the 
opportunity is here. The opportunity is here to invest in this 
area for all of the Mon Dak. Those developers come in; they 
come from North Dakota and they will walk in my office and say 
I want to set my company up here. The environments are totally 
different, but I will not take my wife and child to Williston, 
North Dakota. I want to be here. Where can I live? What are 
your schools like? What is your healthcare like? We promote 
that, but it is very stymied and challenging when there are no 
available homes.
    Senator Tester. OK.
    Ms. Messer. And so that's it for us.
    Senator Tester. Good. Mayor.
    Mr. Norby. I agree with Leslie on that 100 percent. 
Infrastructure's got to be the Number 1 concern. I guess I look 
at this as a sinking ship, and you could turn on this and look 
at this many ways. I mean, yes, you can raise rates and get 
everything up to where the target rates are, but that takes 
time and right now that sinking ship's going to sink----
    Senator Tester. OK.
    Mr. Norby [continuing]. And I don't want to drown here, and 
I don't want my community to drown here.
    Senator Tester. The last time I visited with your 
predecessor when I was in town, Mayor Smelser, and he talked 
about that infrastructure issue as it applied to your sewer 
plant.
    Mr. Norby. Yes.
    Senator Tester. Can you tell me, briefly, can Sidney grow 
at this point in time with the sewer that you have?
    Mr. Norby. We are currently on Phase I and just going to be 
starting on Phase II of the new lagoon, so we are moving ahead. 
When you started the bonding, such as we had talked, we are 
already in the motion on that, so yes, we can.
    Senator Tester. And so you can utilize the build-out you 
are doing right now as far as expansion. You don't----
    Mr. Norby. We are good in that area.
    Senator Tester. Oh, OK.
    Mr. Norby. We have been working with DEQ and stuff like 
that. I mean it is a slow process, but yes, we are getting 
there.
    Senator Tester. Outstanding. Well, that's----
    Mr. Norby. That's just the way it is.
    Senator Tester. That's good news. This is a question for 
Leslie and you Mayor, and Leslie you talked about in your 
testimony some of the things that businesses do in creating 
stuff, creative things like they own their own housing and 
there was some other things too you brought up. Is housing the 
primary challenge, is it wages, is it all of the above? What, I 
mean, it would seem to me that if you are running a clothing 
store in downtown Sidney keeping employees is probably pretty 
darn tough and it didn't used to be tough 10 years ago. So what 
can be done for these guys?
    Well, let's just be honest. What can we do? What could the 
county commissioner do, what could the mayor do, what can I do, 
what can the Governor's office do to help those businesses? Is 
there anything we can do?
    Ms. Messer. Richland County and Sidney area has not had the 
luxury to slowly and systematically improve their 
infrastructure, their streets, their services, the mental 
health issues, the----
    Senator Tester. Right.
    Ms. Messer. We have not had that ability. You cannot tax 
the people to do that quick enough to address those issues 
right now. So, in my opinion, I believe that the county and the 
City are doing the best that they can with the resources that 
they have. They have to take care of their citizens first and 
foremost. The people that are here that want to be here and 
work are being very creative, and what I mean by that is they 
have their family members working at all hours; they are 
closing their doors at different hours to be able to just 
function; they are offering an incentive of maybe of potential 
housing for to start with, like maybe a rental to start with, 
but then they have to go out and find their own, but as the 
oilfield continues to come in and all of those supporting 
services continue to come in, we want them to bring their 
wives.
    Senator Tester. Sure.
    Ms. Messer. So that opens the door for some additional 
supporting services that could be there for that lady in the 
dress shop or whatever, but there's not enough single-family 
homes right now to help them set roots down, and that's what 
the ultimate goal is in my opinion.
    Senator Tester. Gotcha, thank you.
    Lieutenant Governor, you've talked about the $45 million 
dollar grant program that we talked about here just a second 
ago. Are there other plans in place at the State level to 
address economic development challenges out there?
    Ms. McLean. Absolutely.
    Senator Tester. OK.
    Ms. McLean. And to dovetail off your last question to Ms. 
Messer, I would like to point to the fact that the Governor 
launched a very robust conversation about expanding mental 
health opportunities.
    Senator Tester. Yes.
    Ms. McLean. Not just here in Eastern Montana but across the 
State of Montana because we know that's desperately needed here 
and for folks across the Big Sky State. Additionally, the 
Governor wants to expand Medicaid. We think that access is 
critical for 70,000 working Montanans who do not have 
healthcare, and we think that's an important conversation here 
in Eastern Montana as well. I would also like to point to the 
fact that the concentric circles that came out of the very 
important and complex conversation that took place last 
legislative session around K-12 funding led to additional 
resources for K-12 schools in Eastern Montana who were directly 
impacted by this growth to have the resources they would need 
to best meet the challenges, and I would like to point to 
Wibaux, for example, who once had a base salary of $24,000, and 
is now using those resources that I just spoke to elevate that 
base salary to $29,000. I am also aware that districts in 
Eastern Montana are using already signing bonuses to attract 
and then retain high quality classroom teachers, so those are 
some of the efforts that are coming out of Helena specific to 
education in the Bakken. Additionally, I would point to the 
Montana University System where very robust conversations have 
been happening, and I would point to the specific evolution of 
a Eastern Montana strike force that was started in the fall of 
2011 to meet the workforce needs specific to Eastern Montana.
    We know that the SWAMMEI Grant is providing considerable 
help in meeting the workforce development needs in the areas of 
welding, machine, industrial electronics, industrial safety, 
etcetera; and I would like to point to a very important 
conversation that just took place earlier this week with 
Superintendent Farr from here in Sidney as well as each of the 
community college presidents, Klippenstein and President Simon, 
along with industry leaders and business leaders from Eastern 
Montana with the folks from the Train North Dakota Northwest 
Staff to determine how we in our community college system, 
including the Fort Peck Community College, could best address 
the workforce needs, so I can tell you the Bullock 
Administration along with the Montana University System is 
working robustly to develop partnerships and develop programs 
to meet the needs all across the spectrum whether they are 
infrastructure needs; whether they are needs in regards to 
debt-loan repayment, and I would like to point to that key 
piece along with that $45 million dollar grant program, that's 
a key component, Senator Tester. The grant funds may be used to 
repay existing debt incurred on or after July 1 of 2011 for 
water or waste water projects already underway or completed, 
and we think that that is key; and to speak to the safety 
needs, which is embedded in so many parts of these 
conversations, that $4.5 million as I spoke to----
    Senator Tester. Yes.
    Ms. McLean [continuing]. Is right there, and if folks can 
get their applications in the pipeline, the administration is 
going to be ready to address those applications once the 
legislature approves the funding.
    Senator Tester. OK, good. I appreciate that perspective and 
I appreciate hearing those programs. From Federal level, there 
are programs, in fact Tony Preite is going to be on one of the 
programs coming up, there are programs for housing; there are 
programs for infrastructure investment from the Federal level. 
I don't know if you have worked with any of them, but I will 
just ask this, if you were in my shoes, what program works the 
best when it comes to either housing or sewer and roads as far 
as where would you put the money, in what Federal program to be 
able to meet the needs you have?
    Mr. Norby. We do not qualify for anything that's target 
rate wise.
    Senator Tester. Anything that's what?
    Mr. Norby. Any kind of target rates that we have to meet--
--
     Senator Tester. I see.
     Mr. Norby [continuing]. To qualify for any of this. We 
cannot qualify.
    Senator Tester. Because the income is going up.
    Mr. Norby. Yes.
    Senator Tester. So we need to change those incomes.
    Mr. Norby. Yes. You need to change that structure. I mean, 
you can only raise rates so fast----
    Senator Tester. Right.
    Mr. Norby [continuing]. Before you end up being the only 
person living in Sidney, Montana----
    Senator Tester. No, that's not----
    Mr. Norby [continuing]. Besides the workers. [Laughing.]
    Senator Tester. Gotcha.
    Mr. Norby. But I mean that's how we look at it and that's 
we went to the bonding method----
    Senator Tester. Gotcha.
    Mr. Norby. And went that route and are the only options we 
have.
    Senator Tester. I hear you and you are correct. Go ahead, 
Leslie, do you----
    Ms. Messer. I would dovetail onto to what he's saying. The 
CDBG and the housing, the different housing that happen, that's 
all very applicable. We have a very strong housing authority 
that is on the forefront of that battle and you will hear from 
Mr. Groshart later on in the day, and again, a lot of our 
levels and a lot of these programs are focused to the low to 
moderate. That addresses a portion of our population. We should 
be able to address the teachers and some of the others that may 
just barely be out of those limits.
    Senator Tester. Gotcha. OK, good. We are going to--I am 
going to on. We are going to stick with the two Sidney 
residents here for right now. I want to get a better 
understanding of the relationship that the economic developers 
have, you, Leslie, and with the Mayor, the relationship you 
have with the oil companies. Is there a relationship? Have they 
stepped up in any way to address any of the challenges that you 
have?
    Mr. Norby. No, they have not; but me being new, I have not 
went out and spoke with them either, so----
    Senator Tester. OK.
    Mr. Norby [continuing]. I have to be honest about that.
    Senator Tester. Is there, and I just do not know this, do 
they have point people that you can go to or do you have to go 
to each company?
    Mr. Norby. I hate to say it, not that I know of.
    Senator Tester. OK, all right. Leslie, would you address 
that?
    Ms. Messer. As I have traveled across the State, that's the 
No. 1 question that's asked to me, `Well, why aren't you having 
the oil companies pay your bills?' That's a very good question, 
but the reality of it is is that these companies are working in 
our area but their corporate headquarters aren't here.
    Senator Tester. Right.
    Ms. Messer. And so it is this chain of command. We have 
reached out. Some of them have stepped in, but they are focused 
on getting in, getting the product, making a profit and 
conducting business. I am not saying it is right or wrong, but 
when I have had conversations, they feel they are paying taxes; 
they feel they are paying their dues into our State. I cannot 
argue with that from a business standpoint----
    Senator Tester. No.
    Ms. Messer [continuing]. So, historically, being a fifth 
resident of Richland County, we try to do the very best we can 
to solve our own problems.
    Senator Tester. Yes.
    Ms. Messer. This is probably one of the first times in 
history where we don't have the answers and we are seeking 
help, and I don't care where it comes from.
    Senator Tester. Exactly.
    Ms. Messer. We need to take care of our people.
    Senator Tester. I got you; and I appreciate that very much. 
Chairman Stafne, I want to ask you the same question. You guys 
have had some oil development, on your reservation, or has it 
not happened there yet?
    Mr. Stafne. Very little, yes. There are various reasons why 
this is I guess. The red tape that the companies have to go 
through and it takes them forever. We have mentioned this 
before, that the Federal regulations imposed by the Department 
of the Interior and the Bureau of Indian Affairs, that it takes 
to get the approval to drill on Federal land, Indian land, or 
Tribal land, whatever it may be. I think a lot of the companies 
give up before they get to that stage where they are going to 
punch a hole in the ground. That is one very serious drawback 
that we have been fighting for quite a while now and we have 
been speaking to different agencies and I think you are aware 
of that, Senator. We have had various talks about that.
    Senator Tester. Yes, absolutely, and it is something that 
we need to be working with the BIA and beyond and----
    Mr. Stafne. And on that Cotton case.
    Senator Tester. Yes, right, exactly.
    Mr. Stafne. We have been talking a lot about that. Senator, 
I only said one word when you asked me what our greatest need 
was and I said funds. I guess I would like to go a little 
further----
    Senator Tester. Sure, you can, go ahead.
    Mr. Stafne. I guess the number one priority of a lot of us 
is our healthcare. I mentioned this before; the average age of 
the death of an adult male on the Reservation is 51 years old. 
I have surpassed that by almost double now. I do not know why; 
if I am lucky or not, but that's a shame, a child being born 
male can expect to live to 51 years of age; and in a non-native 
community, I do not know, I would assume it is 20 years longer 
than that.
    Senator Tester. Yes.
    Mr. Stafne. And you are aware we have Indian Health 
Services (IHS), and I have attended hearings with you on them, 
so you are aware of the problems there and the fundings we 
need. We have no senior homes or senior care. We are trying to 
build a wellness center and we are fighting for funds for that. 
We are trying to build homes. Even though we do not have the 
oil on our Reservation, the people, the workers have moved onto 
the Reservation and they are offering big bucks to rent our 
houses, and our Native people, our residents are left out.
    Senator Tester. Yes.
    Mr. Stafne. We have people that are camping out in the 
woods----
    Senator Tester. Yes.
    Mr. Stafne [continuing]. Through the wintertime living in 
tents because there is not enough homes built. Our roads and 
streets are bad and we need to help our law enforcement. I 
testified we can use six more drug agents.
    Senator Tester. Yes.
    Mr. Stafne. And our courts are overwhelmed with cases, not 
only tribal courts, the municipal courts, the State courts, the 
Federal courts, and again, money would help with that. I guess 
it is not going to cure it, but we would be able to offer a 
little resistance.
    Senator Tester. Yes.
    Mr. Stafne. We have transportation problems. Our 
Reservation is 100 miles, approximately, across and the center 
of the Reservation, is Poplar where all the reservation 
officers are. A lot of people do not have transportation. Our 
irrigation system----
    Senator Tester. And the list goes on. That's why you said 
funds.
    Mr. Stafne. Yes, it is never-ending.
    Senator Tester. Yes. Thank you, Chairman. Angela, I want to 
come back to this $45 million bucks, this infrastructure 
package, because there's other questions that keep coming up. 
There's a Technical Assistance Rapid Response Team that's going 
to be assisting local communities. Could you give me an idea of 
who is on that or has it been set up yet?
    Ms. McLean. The Rapid Response Teams will be dependent on 
the needs of each community, and they will be assembled based 
on their requests as theysurface, and so each Rapid Response 
Team could look entirely different, but as I spoke in my 
initial statement, it would be made up of folks from the Office 
of Commerce, the DNRC, the Department of Environmental Quality, 
and perhaps others as necessary, perhaps the Department of 
Transportation (DOT), and you will be hearing from Director 
Tooley later.
    Senator Tester. Will local stakeholders have an opportunity 
for input?
    Ms. McLean. Absolutely, and we will come at their request 
and that's part of it. We recognize a large part of this 
conversation in securing Federal resources that may be 
available to these communities revolves around technical 
assistance, and we stand ready in State government to provide 
that technical assistance, not just after the $45 million 
dollars is approved, but right now we stand ready to offer that 
technical assistance.
    Senator Tester. OK.
    Ms. McLean. And a couple of other things I would like to 
just point to in respect to what my good friend Chair Stafne 
just said is the Governor's office hears loudly and clearly 
your needs to recognize healthcare in Indian Country, and for 
the very first time we are having a very aggressive 
conversation about housing a tribal health office within the 
office of the Governor. Additionally, Senator, you asked what 
can the Federal Government do as far as----
    Senator Tester. Yes.
    Ms. McLean [continuing]. Far as programs. I would speak to 
the support of the Housing Tax Credit Program; the Section 8 
Housing efforts; the CDBG grants. Additionally, I mentioned the 
TACT Grant funding that provided our State with $25 million 
dollars. Community colleges got it here in Eastern Montana to 
facilitate these workforce development needs, and so we are 
having these conversations and we look forward to continue 
partnering with you to make sure that we close these gaps where 
they exist all across the board for folks.
    Senator Tester. I appreciate that, Lieutenant Governor. For 
Messer and Norby, a couple of questions that deals with red 
tape on Federal dollars, and you may or may not have gone here 
before, but I am just curious to know when you are going for 
grants or loans, are you seeing unreasonable red tape, 
reasonable red tape when you try to approach a grant or a loan, 
or maybe you have not been able to get there because of the 
income level thatyou just talked about before.
    Ms. Messer. I would say that the accessibility is very 
challenging. Our office has not applied for several different 
reasons because of the fact that we have very strong agencies 
within our community that apply for those, but one of the 
reasons why we don't is, again, our income levels; the 
bureaucracy; the needing----
    Senator Tester. Yes.
    Ms. Messer [continuing]. To hire a consultant to get 
through the application.
    Senator Tester. Sure.
    Ms. Messer. Those are all very challenging on our very 
limited budgets for operation.
    Senator Tester. OK. Absolutely, which got to the point that 
I thought you were going to get to so thank you. Mayor Norby, 
you spoke about impact bonuses for City employees?
    Mr. Norby. What's that?
    Senator Tester. Impact bonuses for City employees?
    Mr. Norby. Yes.
    Senator Tester. Your perspective of those? Have those done 
what you anticipated them to do or----
    Mr. Norby. I would like to give more.
    Senator Tester. Yes.
    Mr. Norby. That's for sure. We went 3 percent and we went 
with a $300 stipend according to how our little bit of oil 
money that we do have, you know, revenue checks come in. That 
will gauge off that. That's the best we could do right now at 
this time to try to be competitive with everybody around us.
    Senator Tester. OK. That's good. Do you know if the school 
districts have done anything similar?
    Mr. Norby. I remember seeing it in the paper. I don't 
remember the number. It was like $2.00 or something like that, 
wasn't it?
    Senator Tester. Because it seems to me it is an incredible 
challenge.
    Mr. Norby. They do something, but I guess I am not----
    Senator Tester. OK, that's fine.
    Mr. Norby [continuing]. Able to tell you exactly what they 
did, but we kind of followed the lead, me and my City court, 
trying to go that direction and that's why we went the way we 
went.
    Senator Tester. Sure. Well, thank you for that. I am in 
constant conversation with the Office of Personnel Management 
when it comes to employees that work on the Federal lands out 
here because quite frankly if the BLM hires an engineer they 
can make twice as much going into the oil patch. Has the State 
addressed that issue at all from a State employee standpoint 
about competiveness of salaries because I think you guys, from 
my experience at the State level we fall under the same kind of 
thing, you have a salary structure that's set across the State 
for your State employees. Is there anything that you can do or 
anything you propose because I am sure you are losing employees 
too just like the local businesses are and school districts and 
everybody else. Is there anything the State can do or has that 
conversation started yet or is it a problem?
    Ms. McLean. I can tell you as far as State employees, I 
would tell you there would most likely not be a significant 
problem.
    Senator Tester. OK.
    Ms. McLean. However, if there is something we can do to 
help communities in Eastern Montana attract and retain workers, 
we definitely want to do that, and I would offer Senator Tester 
that once a community applies and receives grant dollars 
through the Infrastructure Grant Program, that would free up 
resources for them to use those dollars that they might have on 
the table to attract and retain staff, and that was the whole 
notion of the concentric circle conversation around education 
was how can we help schools in Eastern Montana have the 
resources to attract, retrain high quality teachers in the 
classroom.
    Senator Tester. OK, good. Chairman Stafne, I just want you 
to speak about the difficulties of recruiting and training 
police officers. It is my understanding that the starting 
salary of a tribal police officer is about $3.00 less per hour 
than a person with the same qualifications working across the 
border at a Wal-Mart in Williston. That puts us in a heck of a 
bind. Talk to me about your challenges with recruiting and 
retaining officers.
    Mr. Stafne. As far as salary goes, I do not know, but we do 
have a couple of members of the Sheriff's Department and maybe 
they are on the panel and they can probably discuss that with 
you. Are you on the panel?
    [Indicating to an officer in the audience.]
    Senator Tester. We will take that up with him afterwards. 
You are still with the Tribal Police Department?
    [Whereupon, an officer in the audience nods head 
affirmatively.]
    OK, good, all right. Well, I will close it out here because 
we have burned through about an hour, and I just want to thank 
you guys for your patience as we talk about these issues, and I 
also want to thank you all for your service and your vision and 
your ability to tell it like it is. I think that's really 
critically important, and I think that the testimony you gave 
today, I mean, the hope that I get out of this, and I talked 
about it a little bit in the opening statement, that the hope 
that I get out of this is that we can all sit down and 
understand where our challenges are and help one another meet 
those challenges. Because the truth is in the case of the City 
of Sidney, you can not do it all. You do not have the ability 
to do it all; you do not have the resources to do it all, but 
hopefully the Federal, the State and the county can help and we 
can all achieve the goal we are looking for and that's a place 
we can call home, so thank you all very much for being here.
    Mr. Stafne. Thank you, Senator, for conducting these 
hearings.
    Senator Tester. Yes. Thanks you all. Now, we will get ready 
for the second panel so you guys probably know who you are. We 
are going to change some nametags and let folks get readjusted 
here. We have Mike Cotter, Mike Gottlieb, Scott Vito, Tim Fox, 
and Craig Anderson. Those five will be up next. We will have to 
snuggle.
    OK, we need Attorney General Fox and Sheriff Anderson to 
come on up and sit right down. Thank you----
    Thanks to the first panel on economic development. Our 
second panel is going to focus on law enforcement, and we have 
a great blend of Federal, state and local law enforcement 
officials. The man to my immediate left is Mike Cotter, he is 
the U.S. Attorney for the District of Montana. He was nominated 
for this position by the President and was confirmed by the 
U.S. Senate in December 2009. Mike oversees an office; he 
conducts Federal investigations and prosecutions as well as the 
majority of Federal civil litigation in which the United States 
is a party. I should also note that Mike is a U.S. Army 
Veteran, and we thank you for your service not only in the 
military but as U.S. Attorney. Thank you for being here, Mike.
    And then we have Mike Gottlieb is the National High 
Intensity Drug Trafficking Areas (HIDTA) Director. That's a 
pretty good handle, Mike. He is with the White House Office of 
National Drug Control Policy (ONDCP). This is an important 
position in this region. In his role, Mike oversees a $238 
million dollar grant program that funds 670 investigative, 
prosecution, interdiction and prevention initiatives. Over the 
years, he has advised the Obama Administration; the Bush 
Administration; and the Clinton Administration in prominent 
legal and management roles in ONDCP. Mike, I want to thank you 
for coming to Montana, and I want to thank you for coming here 
today. We appreciate your flexibility to be here; and then we 
have Scott Vito.
    He is an Assistant Special Agent In Charge in the Salt Lake 
City Division of the FBI. In that capacity, he oversees Bureau 
investigations across Montana. Scott first became an FBI 
Special Agent in July 1995. Prior to that, he served in the 
U.S. Army for 7 years; we thank you for your service; and later 
as a police detective. Thank you for being here today, Scott. I 
very much appreciate the FBI coming here because you are a big 
player in this region.
    We also have Attorney General Tim Fox, the Attorney General 
for the great State of Montana. He is the State's Chief Legal 
Officer, Chief Law Enforcement Officer, and Director of the 
Montana Department of Justice. He has a lot of hats. Tim was 
elected in 2012 and has previously for the Montana Department 
of Environmental Quality. It is absolutely good to have you 
here today and I appreciate you taking the time out to be here.
    And last, but certainly not least, we have Sheriff Craig 
Anderson, Sheriff of Dawson County since June 2003. In that 
role he is responsible for a large portion of law enforcement 
in this region. Craig is a former Chief Probation Officer with 
27 years of experience. Previously, he also worked on the Youth 
Justice Council and the Montana Board of Crime Control. As 
always, it is great to see you, Craig; thank you for being here 
today.
    As I told the first panel, if you can keep it to 5 minutes 
we would appreciate it, and I am talking to you, Cotter.
    Mr. Cotter. I can and I will. [Laughter.]
    Senator Tester. If you can keep it to 5 minutes, it would 
be great. If I start rattling the gavel you will get the hint, 
but I would just tell you that when we set this hearing up we 
sat down and we talked about who we wanted, and I am going to 
tell you the five of you I did not think we would get all of 
you, but we got all of you, and I just want to say thank you 
very for taking time. I know you have other things to do, maybe 
multiple things to do, but you are here today; you are here in 
Sidney to talk about an important issue, and you are here 
because you know it is important, so thank you all for being 
here. With that, Mike Cotter, you can get us started.

TESTIMONY OF HON. MICHAEL W. COTTER,\1\ UNITED STATES ATTORNEY, 
        DISTRICT OF MONTANA, U.S. DEPARTMENT OF JUSTICE

    Mr. Cotter. Thank you, Senator Tester and thank you very 
much for inviting me and giving me an opportunity to speak to 
Federal law enforcement efforts here in the Bakken.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cotter appears in the Appendix on 
page 81.
---------------------------------------------------------------------------
    First of all, I am a big cheerleader for the efforts that 
have been made by the Federal law enforcement over the last 3 
years. They have done a damn good job, and I will go into more 
detail during the Q and A period as to the things that we have 
been able to accomplish in the last period of time.
    In 2012, Senator, the United States Attorney's Office for 
the District of Montana and the District of North Dakota 
convened a law enforcement strategy session in Glasgow, 
Montana. There were 150 Federal, state, local and international 
and tribal law enforcement personnel from Montana, North Dakota 
and Canada that attended the meeting, and from that the 
strategy of Project Safe Bakken emerged. That remains a high 
priority for Montana and remains a high priority to the United 
States Attorney's Office of North Dakota.
    Project Safe Bakken's mission is to coordinate and 
synchronize the law enforcement efforts between Federal, state, 
tribal and local enforcement entities. The purpose is to 
detect, disrupt and dismantle organized criminal enterprises 
who distribute illegal drugs and commit other crimes in the 
Bakken region of Montana and North Dakota. And to that end, the 
United States Attorneys for Montana and North Dakota, the 
Attorney Generals for Montana and North Dakota, Federal, state, 
local and tribal enforcement have formed a task force to share 
intelligence to combat crime in the region and affecting 
communities including Fort Peck and Fort Berthold Indian 
Reservations. And since the inception of Project Safe Bakken in 
my office in Montana, we have indicted 117 defendants on 
Federal drug trafficking charges specific to the Bakken region. 
In one case recently, we successfully prosecuted the leader of 
a large methamphetamine drug trafficking organization. The 
defendant, Robert Farrell Armstrong, received 20 years in 
prison for trafficking large amounts of nearly pure meth into 
this part of Montana. We have also opened cases and prosecuted 
pornography, oil and gas scams along the Fort Peck Reservation, 
worker endangerment and environmental crimes. In North Dakota, 
my counterpart over there, U.S. Attorney Tim Purdon, he's seen 
a case load increase in Western North Dakota from 126 
defendants in 2009 4 to 336 in 2013.
    But the beauty of the Project Safe Bakken approach is, 
Senator Tester, it is not Montana specific, it is not North 
Dakota, it is regional. It also encompasses Saskatchewan and 
parts of Manitoba; and what we are experiencing here in 
Montana, they see it in North Dakota, they are seeing it up in 
Canada, so it really is an effort of all law enforcement 
agencies to identify through intelligence gathering and sharing 
specific targets that need to be identified and dealt with 
effectively through prosecutions.
    The other things that we have done from the Montana side, 
the Department of Justice (DOJ) has also responded with 
training and financial assistance to State, local and tribal 
law enforcement. Since 2012, my office here in Montana has 
coordinated at least five separate trainings for State, local 
and tribal officers out here in Eastern Montana. We have 
dispatched Assistant United States Attorneys who have come out. 
They have joined up with the Bureau, the FBI, DEA, the Bureau 
of Alcohol, Tobacco, Firearms, and Explosives (ATF) to provide 
training for the locals. Over in North Dakota, the Drug 
Enforcement Administration has just concluded a 2-week drug 
investigation school for the Bakken drug agents. Violence 
against women; the Department's Office of Violence Against 
Women just recently announced the release of two grant 
solicitations as a part of a new $3 million dollar special 
addition to the Bakken region and will impact both Fort 
Berthold as well as Forth Peck. It will aid the local criminal 
justice system in responding to the crimes by providing the 
resources for Tribal Special Assistant United States Attorneys.
    The Project Safe Bakken does illustrate the dynamic working 
partnership in Montana and North Dakota between Federal, state, 
local and tribal law enforcement entities to combat crime and 
address public safety issues. We are committed to 
communication, coordination and collaborations with our law 
enforcement partners to promote public safety in this area. The 
FBI, ATF and DEA have all done intelligence collecting. They 
have also identified the issues that are here and fully 
understand that systematic long-term changes will be necessary 
in order to provide security to the region, but in the short 
term, FBI has deployed agents on a rotating detail to Sidney, 
Montana. They have created a new squad for Western North 
Dakota. The Drug Enforcement Administration and the Bureau of 
Alcohol, Tobacco and Firearms and Explosives have also 
dispatched agents from Billings to this area to deal with 
specific problems and will continue to do so in the foreseeable 
future and into the future. As long as there is a problem, the 
response will be there.
    Thank you, Senator Tester, and I look forward to taking 
your questions later. Thank you very much.
    Senator Tester. Yes, thank you, Mike Cotter. I very much 
appreciate your testimony and I appreciate your service as U.S. 
Attorney for the State of Montana; thank you.
    Mr. Cotter. Thank you.
    Senator Tester. Mike Gottlieb.

  TESTIMONY OF MICHAEL K. GOTTLIEB,\1\ NATIONAL DIRECTOR HIGH 
  INTENSITY DRUG TRAFFICKING AREAS (HIDTA) PROGRAM, OFFICE OF 
                  NATIONAL DRUG CONTROL POLICY

    Mr. Gottlieb. Senator Tester, thank you for the opportunity 
to appear before you to discuss the Office of National Drug 
Control Policy's recently released National Northern Border 
Counternarcotics Strategy and ONDCP's work to coordinate the 
efforts of Federal, state, local and tribal resources to 
address emerging drug threats in the Bakken oilfield region.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gottlieb appears in the Appendix 
on page 86.
---------------------------------------------------------------------------
    I am the National Director of ONDCP's High Intensity Drug 
Trafficking Areas Program and I am pleased to be in Sidney this 
morning as this will mark my third visit to the Bakken region 
in the past 10 months. The HIDTA Program provides assistance to 
Federal, state, local and tribal law enforcement agencies to 
facilitate coordination and cooperation to combat drug-related 
safety and health consequences in areas determined to be 
critical drug trafficking regions of the United States. Thus, 
as part of our activities, we regularly interact with law 
enforcement entities working to halt illicit drug use in the 
Bakken region. There are 28 regional HIDTAs, which include 
approximately 16 percent of all counties in the United States 
and 60 percent of the U.S. population. The HIDTA Program is 
active and thriving in the State of Montana.
    The National Northern Border Counternarcotics Strategy is 
the Administration's plan for substantially reducing the flow 
of illicit drugs and drug proceeds along our Nation's Northern 
border. It provides an overview of current counternarcotics 
efforts in the region and identifies strategic objectives and 
specific actions that will enable us to achieve our goal. The 
2014 Strategy acknowledges the inherent challenges in 
curtailing illicit drug trafficking across the Northern border, 
among them are the vastness of the border itself, which extends 
more than 5,000 miles, as well as the ever--evolving illegal 
drug production and trafficking trends that confront law 
enforcement officers.
    Another challenge is the emergence of drug trafficking and 
related crimes resulting from the development of the Bakken 
oilfields. In recognition of this emerging threat, the 2014 
Strategy includes a specific section dedicated to drug traffic 
in the Bakken region and our efforts to address this threat. To 
highlight the challenges present in the Bakken region, the 
Administration elected to release the national strategy in 
Minot, North Dakota, on August 19. The 2014 Strategy updates 
and expands upon the Administration's first National Northern 
Border Counternarcotics Strategy which was released in 2012. 
Like its predecessor, the 2014 Strategy builds upon existing 
relationships, programs and policies. It seeks further 
opportunities to pursue national security by disrupting 
transnational criminal organizations and improves information 
sharing, thereby enabling more efficient and effective use of 
resources. Specifically, the Strategy lays out several 
strategic objectives central to our efforts. They include 
enhancing intelligence and information sharing at the Northern 
border; interdicting illicit drugs and drug money at and 
between ports of entry along the Northern border, on land, in 
the air and over the water; and enhancing counterdrug efforts 
in cooperation with tribal governments along the border; and 
finally, investigating and prosecuting dangerous criminal 
organizations operating along or exploiting the Northern 
border. The 2014 Strategy contains more than 40 individual 
action items that will be implemented in the coming weeks and 
months, and ONDCP will oversee theses processes which will be 
supported by our numerous Federal, state, local and tribal 
partners. The Strategy aligns with the Administration's 
foundational document, the National Drug Control Strategy. As 
we work to substantially reduce drug trafficking and related 
crime across the Nation's Northern border, we are also engaged 
in efforts to address the emerging threat of drug trafficking 
in the Bakken region. For example, in 2013 ONDCP officially 
designated Williams County, North Dakota, as part of the HIDTA 
Program. With this designation, HIDTA funds were directed to 
hire an additional Special Assistant United States Attorney to 
provide support to the prosecution of organized crime and drug 
trafficking.
    The Administration also launched an interagency 
partnership, Project Safe Bakken, to coordinate law enforcement 
efforts in the region. ONDCP's HIDTA Program supports law 
enforcement efforts in Montana by facilitating cooperation 
among Federal, state, local and tribal agencies. Through the 
work of the Rocky Mountain HIDTA, more than $900,000 in Federal 
grant funds are directed to drug task forces operating in the 
State of Montana. The Eastern Montana, the Missoula County, the 
Missouri River, the Northwest Montana, and the Russell County 
Drug Task Forces bring together Federal resources with 4 State 
and 12 local agencies.
    The Administration also supports drug prevention efforts in 
the Bakken oilfield region. ONDCP's Drug Free Communities 
(DFC), Support Program, provides grant to community coaltions 
that are focused on identifying local drug problems and 
implementing comprehensive strategies that create community 
level change. There are currently seven Drug Free Communities 
funded by ONDCP in Montana, including one in Sidney, the 
Richland County Partnership for Promise Coalition. This 
coalition has been collaborating with various sectors of the 
community to prevent and reduce youth substance use, and each 
year DFC programs staffed from ONDCP conduct grant application 
workshops across the country, including special technical 
assistance sessions dedicated to helping tribes write 
competitive grant applications.
    Senator, the Administration's efforts to confront drug 
trafficking and its public safety and public health 
consequences are comprehensive and varied. A few quick examples 
include the $3 million dollar grant from the Department of 
Justice's Office of Violence Against Women to strengthen law 
enforcement's aid to victims of sexual assault and domestic 
violence. HHS and CDC support their public health programs and 
health centers in Montana and North Dakota. To strengthen 
substance abuse disorder services in the Great Plains Area of 
the Indian Health Service, there was increased funding for a 
contract mental health therapist and a part-time counselor to 
focus on substance abuse treatment.
    Senator, as you work to implement the 2014 National 
Northern Border Counternarcotics Strategy in the coming weeks 
and months, we look forward to working with our many Federal, 
state, local and tribal partners to reduce use and its 
consequences on both sides of our Northern border and within 
the Bakken region as part of the comprehensive administration 
effort to address the issues that have arisen from the 
development in this region. Thank you, Senator Tester, for your 
leadership.
    Senator Tester. Yes, thank you Mike, I appreciate your 
testimony and thanks for being here once again. Scott Vito.

TESTIMONY OF SCOTT VITO,\1\ ASSISTANT SPECIAL AGENT IN CHARGE, 
    SALT LAKE CITY DIVISION, FEDERAL BUREAU OF INVESTIGATION

    Mr. Vito. Good morning, Chairman Tester. I am pleased to be 
with you here today to discuss the FBI's efforts to combat 
crime in the Bakken region. The Bakken formation is now 
considered one of the most important sources of oil in the 
United States. In fact, late last year the U.S. Energy 
Information Administration projected that Bakken production in 
North Dakota and Montana would ultimately exceed 1 million 
barrels per day. The development of the Bakken oilfields has 
also caused a sharp spike in both population and income levels. 
Unfortunately, the boom in population in the region also 
provides significant opportunities for an influx of criminal 
elements. In early 2013 in response to this burgeoning crime 
problem, the FBI along with its Federal and State law 
enforcement partners began to develop a strategy that addressed 
the criminal threat to the region. In May 2013, the FBI working 
with the United States Attorneys' offices in Montana and North 
Dakota participated in a combined strategy session of Project 
Safe Bakken. This effort resulted in the FBI's decision to 
surge resources to the Bakken area and locate them in Sidney, 
Montana. Here in Montana, two agents have been co-located with 
their State and local counterparts in the Richland County 
Sheriff's Department since July 2013.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Vito appears in the Appendix on 
page 94.
---------------------------------------------------------------------------
    Additionally, their efforts are supported and bolstered by 
numerous FBI resident agencies and two FBI field offices. We 
used our intelligence gathering process to consistently assess 
the ongoing threat. This information influences our resource 
decisions to effectively address those threats, which in turn 
ensures the FBI addresses those threats created by the 
development in the Bakken. At present, the FBI headquarters has 
continued to evaluate the threat and has assured us they will 
continue to direct additional resources as necessary. As a 
threat-based, intelligence-driven organization, the FBI relies 
heavily on intelligence gathered from our State and local law 
enforcement partners and private sector relationships. Project 
Safe Bakken was a deliberate precise targeting of an emerging 
criminal threat to the area. The purpose of this long-term 
project is to detect, disrupt and dismantle drug trafficking 
organizations and criminal enterprises that are operating in 
the Bakken region in Montana and North Dakota. Importantly, 
this Task Force approach allows us to both share intelligence 
and force multiply. Through such efforts, we not only address 
those crimes which are statutorily within the FBI's 
jurisdiction,but also share vital information needed by our 
State, local and tribal partners to combat crime within the 
community.
    For example, collaborative efforts among Federal, state, 
local and tribal partners in June 2013 resulted in the arrest 
of 22 people. Similarly in October 2013, a coordinated effort 
led to four arrests in North Dakota and 12 in Montana. Earlier 
this year, Operation Pipe Cleaner and Operation Pale Mule saw 
the arrest of more than 35 individuals. The charges were 
predominantly related to drugs, specifically related to heroin 
and methamphetamine, which have become increasingly available 
in the Bakken region. As an example of our continuing 
coordination and integration with local law enforcement, within 
the last month our agents working with the Sidney Police 
Department in Montana and the Williston Police Department in 
North Dakota on two firearms thefts. Our agents worked with the 
police departments and were able to gather significant 
evidence. Using this evidence, we were able to leverage our 
national resources to gather items of comparison from 
California that led to the identification and the arrest of a 
subject by the Sidney Police Department. This investigation is 
ongoing and may result in additional charges.
    Chairman Tester, let me assure you that the FBI remains 
committed to assisting our State and local partners in making 
certain that the safety and well-being of the people in Montana 
remains a priority. Thank you again for the opportunity to 
testify. I will look forward to answering any questions that 
you may have.
    Senator Tester. Thank you, Scott. I appreciate your 
testimony. Attorney General Fox, you are up.

   TESTIMONY OF HON. TIM FOX,\1\ ATTORNEY GENERAL, STATE OF 
                            MONTANA

    Mr. Fox. Chairman Tester, thank you for inviting me here to 
speak with you today and to answer questions. Thank you, also, 
for coming to Sidney, welcome home. I think it is vitally 
important for Congressional Committees to hold field hearings 
throughout the country, especially when the subject matter is 
tied to a particular place. Opportunities and challenges tend 
to be a little different up close than they do from Washington, 
DC, as you well know. I say opportunities and challenges 
deliberately because this is precisely what we face here in 
Eastern Montana. We cannot speak of one without the other. Oil 
and gas development is the second largest industry in Montana. 
It is responsible for more than 12,000 direct jobs locally, 
which pay on average $60,000 per year, well above the majority 
of wages in Montana. The industry is also responsible for 
thousands of more indirect jobs. Last year, oil and gas 
development generated more than $200 million dollars in tax 
revenue for Montana's State and local governments. By the way, 
much of that should be redirected back to this area I believe. 
But also many other States have faced sizable budget deficits 
in recent years. Montana has enjoyed comfortable surpluses and 
economic balances while still providing vital services to its 
citizens. We would not have been able to do so without the 
economic activity from resource development. What is happening 
here in Montana and North Dakota is part of the ``all of the 
above'' energy strategy emphasized by President Obama. 
Hydraulic fracturing and other technologies have evolved over 
the years and now represent an unprecedented opportunity to 
safely and responsibily work toward our Nation's energy 
independence.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fox appears in the Appendix on 
page 96.
---------------------------------------------------------------------------
    As you have heard and will hear from others today, with 
such opportunity and growth comes the need to invest in 
infrastructure. Economic growth means thousands of new people 
are living and working in the region. Our highways are busier 
and the once quiet towns are now bustling with activity. This 
is the case in any part of the country with rapid population 
and economic growth comes an increase in crime rates. From 2008 
to 2012, the number of arrests in all crime categories in the 
counties that fall within the Bakken region increased by 80 
percent. From 2010 to 2013, the number of narcotics 
investigations undertaken by the Montana Department of Justice 
in Northeastern Montana increased by 281 percent. From 2008 to 
2012, arrests for drugs and drug paraphernalia increased by 
more than 300 percent. Earlier this year, one city police chief 
in Northeastern Montana reported that domestic violence had 
increased by 148 percent in the past 5 years; and the number of 
attacks increased by 825 percent; and cases of drug abuse 
increased by 785 percent. In 2010, it became clear to law 
enforcement authorities in the region that much of the narcotic 
trafficking was being conducted by national and international 
criminal organizations including Mexican drug cartels. Their 
presence throughout Northeastern Montana and Northwestern North 
Dakota has become a commonplace. In 2010, in Northeastern 
Montana, a gram of methamphetamine brought a street price of 
around $100; an ounce sold for $500 to $600. Beginning in 2011 
and continuing today, the price has continually increased. 
Currently, a gram of meth brings $250 to $300; and an ounce 
routinely sells for $2,800 to $3,000, and the area around 
Sidney far exceeding national prices for these drugs. Their 
quantity and purity indicate an origin in the Southern United 
States and Mexico.
    These are just a few of the statistics that make it clear 
that law enforcement is and must continue to be a key part of 
any investment in infrastructure. As Montana's Chief Law 
Enforcement Administration Officer, the safety of our citizens 
is paramount, my paramount duty. It is also the drive of more 
than 800 public services of Montana Department of Justice who 
work tirelessly in all corners of this State, often under 
dangerous circumstances to protect their citizens. We take this 
responsibility very seriously as do the city, county, tribal 
and Federal law enforcement partners with whom we work on a 
daily basis. Our legislature meets only for 90 days every other 
year which gives State and local officials narrow windows of 
time to pursue many of the avenues available for responding to 
the growth in Eastern Montana. When I took office last year, it 
was clear that the Department of Justice needed to invest more 
resources in Eastern Montana. At the time, call response times 
for highway patrol troopers were unacceptable with very long 
durations. Our troopers were stretched too thin and were over-
burdened so much in the fact that retention had become an issue 
with our ability to not only respond to calls in a timely 
manner, but also assist local agencies in jeopardy.
    We went to the 2013 legislature and asked for funding to 
add additional troopers to our Eastern Montana detachments. We 
were successful in acquiring five new troopers who are already 
working in the field now. We also steered more resources to our 
Division of Criminal Investigation which helps local and 
Federal law enforcement agencies and tribal agencies as well 
investigate complex crime--profiled violent crimes. From day 
one of the 2013 Legislative Session, we worked to secure two 
additional DCI agents for Eastern Montana. In the end, we were 
successful, and much of that credit belongs to Governor Bullock 
who was a former attorney general and he understands the law 
enforcement challenges facing Eastern Montana.
    Speaking of DCI, I am glad that Montana's U.S. Attorney, 
Mike Cotter, is here today. Mike and his team work very hard to 
prosecute Federal criminal cases throughout Montana. Our DCI 
agents assist Mike's office in such cases on a regular basis. 
It is an important and productive partnership that benefits 
Montanans and we are committed to maintaining it. I also want 
to mention that at Mike's suggestion, I am adding a budget item 
in my budget the next legislature to secure another prosecutor 
who will be solely responsible for Eastern Montana drug 
prosecutions, and Mike has committed that should this person 
have the right qualifications, and I am sure they will, that 
this person would be designated as a Special Assistant U.S. 
Attorney, and I think that will further our cooperation 
collaboration.
    Field work is just one aspect of law enforcement. At the 
Department of Justice, we also operate the State Crime 
Laboratory which processes the evidence that can make or break 
successful prosecution facing a backlog created in part by 
cases in Eastern Montana. Last year we increased staffing at 
the lab in the key areas of forensic science. We also 
successfully advanced legislation establishing a THC impairment 
standard for driving under the influence (DUI) of marijuana as 
well as a bill banning the popular designer drugs that mimic 
dangerous illegal drugs.
    To combat repeat DUI offenses, we are investing 
considerable time and resources into expanding the 24/7 
sobriety program, including two counties impacted by Bakken 
growth. This has been a tremendously successful program that 
holds repeat offenders accountable and saves tax payer money by 
eliminating many incarceration costs. During the 2013 
Legislative Session, we successfully advanced a bill changing 
from 5 years to 10 the window to determine if an offender is 
subject to the intent advanced enhanced criminal penalties and 
driver license sanctions for a second or subsequent DUI 
conviction.
    Our Prosecution Services Bureau assists Montana's smaller 
counties--including those impacted by the Bakken region, with 
the toughest cases, our seasoned agents under the DIC, which I 
mentioned previously, help county sheriff offices and City 
police departments investigate the range of crimes that have 
increased with population and economic growth in Eastern 
Montana. I am excited to say that earlier this year with the 
help of Federal money and forfeiture money, we launched a 
Montana Highway Patrol's first ever K-9 Narcotic Units.
    These six units are stationed in strategic locations along 
major corridors that conduct drug interdiction operations 
throughout Montana. This represents a significant advancement 
in our ability to intercept drugs being trafficked through 
Montana. We are also working very hard to raise awareness to 
human trafficking, which is now taking place in the Bakken 
region, and in the interest of time I am going to skip a little 
bit more about that. In addition, we are training our officers 
that come out of the Montana Law Enforcement Academy about 
human trafficking and how to look for signs of human 
trafficking. Just with one agency alone cannot fully address 
the public safety challenges in the Bakken region. The public 
sector alone will not suffice. A holistic approach requires 
partnership with the companies operating in the region. To that 
end, the Department of Justice has been working with the 
Montana Petroleum Association and its members to explore ways 
we could work together. For example, our agents have been 
training human resource staff on how to identify red flags 
during the screening process. Most of the people that come to 
work in the Bakken are honest men and women who want to work 
hard and earn a good living for themselves and their families, 
yet we cannot deny that there are criminals and others with 
nefarious intentions seeking employment as well. If we can work 
together with these companies during the hiring process, we can 
make big strides in helping prevent that element from gaining 
access to the region.
    My staff and I are more than happy to answer any questions 
from you, Senator Tester, others in attendance here today, 
again, I do appreciate the opportunity to be here and speak 
with you and I want to personally say that you and your staff 
have always been attentive and receptive to inquiries from my 
office and I appreciate that very much.
    Senator Tester. Well, thank you, Tim, and I appreciate you 
being here today. Sheriff Anderson, last but not least, you are 
up.

 TESTIMONY OF HON. CRAIG ANDERSON,\1\ SHERIFF, DAWSON COUNTY, 
                            MONTANA

    Mr. Anderson. Well, good morning, Senator, and thank you 
for the invitation to visit with you and I echo the Attorney 
General's compliment to you and your staff. You have been very 
responsive to our office and our county with our challenges. As 
I sit here listening to everything, I could either chamber up a 
shotgun shell and kind of scatter out a message, but I think I 
would rather take my time and deliver a rightful shot, I 
believe it is a warning shot and nobody's talking about it, it 
is the stepchild of the justice system and it is called jail. 
And to give you some background, in 1996 after two unsuccessful 
GO Bonds in Dawson County, the good folks in Dawson County 
passed a bond issue that was about $4.1 million and we built a 
28-bed jail, and at the time we thought that capacity would 
take us well into the future, and we woke up one morning with a 
900-pound gorilla in our bedroom and it was called the Bakken 
and all of a sudden our jail filled up. And prior to the 
Bakken, our average daily production (AVP), in Dawson County 
was about 12. Today, or last month, our average daily 
population is 27. That's average. Now, we are sleeping people 
on the floor, and our problem isn't unique to Dawson County. We 
have undertaken a planning effort to expand, and we took a 
snapshot of all the jails in Eastern Montana and Western North 
Dakota. Williston, North Dakota's capacity is 132 bed, and 
their AVP was 145; Richland County is at 26 beds, their AVP is 
33; Roosevelt County has 17 beds, their AVP is 15; Rosebud 
County has 26 beds, their AVP is 23; Valley County has 26 beds, 
their AVP is 22. We have a problem. So last, about a year ago, 
Dawson County Commissioners decided we would retain an 
architectural firm and we are in the design phase, or the 
conceptual phase, and right now the dollar amount that they are 
projecting for us to expand is $9 million dollars. Dawson 
County Commissioners chose to ask the Dawson County tax payers 
to invest half of that in a GO Bond that will be on the ballet 
in November for $4.5 million, and we need to find $4.5 million 
because the good people of Dawson County, we solved our jail 
problem, and what is being visited upon us and every other jail 
in the region is not of our making, we could not foresee it, so 
we are looking for help from the Federal Government, from the 
State government, from other counties and we are going to 
create some creative funding opportunities, but our taxpayers, 
hopefully, will at least double that and invest half. Now, the 
U.S. Attorney, Montana Attorney General, they can decide today 
to put boots on the ground with badges and guns, and this is a 
target rich environment, and when they start cuffing up people, 
where are they going to take them? The inn is full. Now, we 
could change our priorities and funding mechanisms and move 
personnel on a dime, but nobody's talking about the fact that 
if we need to recognize we have a jail shortage. We do not have 
capacity. If we decide that we do not today and we have the 
money, we are 24 to 36 months out before those jail beds come 
on line.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Anderson appears in the Appendix 
on page 100.
---------------------------------------------------------------------------
    So let me close with an analogy and a question. Why would a 
farmer plant more grain than they have room in the bin to 
store? And while our country has been dependent on foreign oil, 
how much money have we spent as a country protecting oil 
interests abroad? And I just raise the question on a 
proportionate level, are we investing that same amount of money 
to protect the people who are living in the Bakken region, and 
with that Senator I'll close and I look forward to any 
questions.
    Senator Tester. Fair point, Sheriff. Thank you for your 
testimony. I appreciate it very much. I am going to change the 
format a little bit based off of your testimony since it is 
fresh in my mind. You bring up a point--if we start arresting 
folks, and the need is great out there, I think everybody kind 
of accustomed to the fact; the percentages the Attorney General 
brought up and the rest of the testimony, I would like to know 
your view about our jail capacity, and I think I will put this 
to Tim and to Mike Cotter. What is your perspective on that? Is 
it an issue that we need to be dealing with in a proactive way? 
Obviously, the Sheriff's dealing with it in a proactive way in 
Dawson County, is it big enough we need to deal with it 
statewide and from a Federal standpoint?
    Mr. Fox. As I mentioned earlier in my testimony, Senator, 
those who bear the greatest burden of the benefit that is 
coming out of the Bakken I believe about to receive their share 
back, and that will be part of the legislature's duty and the 
Governor's duty in the next legislature; and I might add that 
it is not just jails; it is victim's services; it is mental 
health services; anything and everything related to the justice 
system is overtaxed and overburdened here, and sheriff's become 
very creative in moving people around, but every time you have 
to take a prisoner to another jail or another county or 
someplace else there's a day's worth of wages, someone whose 
not there when the call for help is made, so you know, I can 
not even begin to imagine the kind of stress this puts not only 
on the sheriff's department, police department, others here 
locally, but on the people, because as you get creative, one of 
the things you start doing is releasing people you would rather 
not release because you just do not have room for them. Another 
thing you might do is you, you find an outstanding warrant, you 
do not pick them up just because you have no place to put them; 
so those are touch decisions for law enforcement, and you know 
thatholistic approach that I was speaking about I think will be 
very important. That's one of the reasons that I am exploring 
something new and different which is putting together a task 
force to identify the needs for law enforcement, first 
responders, victim services and the like and setting up a 
foundation for the companies who are benefiting from the Bakken 
boom to be investing in so that money again also rolls around 
or is more targeted to the individual needs that are necessary 
here in these communities.
    Senator Tester. Gotcha.
    Mr. Fox. I hope that answers your question.
    Senator Tester. It does. I mean I think basically you agree 
there's a jail shortage, but there's also mental health 
services and family services and other services that we are 
short on, Tim, we are short, bingo. Mike Cotter, would you 
address the jail issue if you could?
    Mr. Cotter. I will, Senator, thank you very much. It is 
obvious that when down in Sheriff Anderson's county when they 
built that jail they did not anticipate that----
    Senator Tester. Right.
    Mr. Cotter [continuing]. They would ever need----
    Senator Tester. Sure.
    Mr. Cotter [continuing]. A larger jail. And I know that----
    Senator Tester. And it is probably the same thing here in 
Richland County, too. I mean you guys have a pretty new 
facility, pretty recent, the same thing, so yes, go ahead.
    Mr. Cotter. And with respect, we do not have a Federal 
holding facility, we do not have a Federal prison in Montana, 
but what the Marshal Service does once that goes into the 
Federal system they are, the defendants, are housed in county 
jails whether it is Yellowstone County, they are up in Shelby, 
they are in Lewis and Clark County, and there is no doubt in my 
mind that Sheriff Anderson probably has some Federal prisoners 
in his jail as well or those that are arrested through the 
efforts of the Montana Highway Patrol through interdiction, 
couriers with drugs, that's where they wind up, and they 
eventually get moved into the Federal system, and we do not 
have a jail capacity here in the eastern part of the State.
    Senator Tester. I got it.
    Mr. Cotter. We do not.
    Senator Tester. OK. Thanks. You might as well keep the mic, 
Mike, we are going to go a little different way. We have a 
little different area that's very important. You all spoke 
about the prevalence of increased criminal activity and the 
evolving nature of the crimes that are happening here in the 
Bakken. From your perspective, from your work, what is the 
primary criminal threat to the communities here if you could 
talk about a primary? You might have to talk about more than 
one, but----
    Mr. Cotter. Well, there is more than one, Senator, and when 
I started this job 5 years ago, methamphetamine was not 
necessarily a big problem, but we are awash in meth----
    Senator Tester. OK.
    Mr. Cotter [continuing]. In Montana. We are also seeing 
heroin, which is something we did not see 5 years ago; and the 
other thing that we do see is violent crimes. My family is from 
Miles City, and I have to tell that the 100 years that my 
family lived in that community I do not think they ever locked 
the door to their house, but violent crime is now here in 
Eastern Montana, and this all came about and our focus was 
brought to it with the Arnold murder.
    Senator Tester. Right.
    Mr. Cotter. And it was a wakeup call; and you know, people 
choose to live in this part of the State because they enjoy it, 
it is a good place to be, it is a good place to raise a family, 
it is family oriented communities, but that is no longer with 
the problems that have come in recently.
    Senator Tester. So with the meth, excuse me, Mike, but with 
the meth and the heroin and the violent crime, would you say 
they are all attached at the hip?
    Mr. Cotter. I would say yes they are. I picked up the 
Billings Gazette today. There was a six pound meth bust 
yesterday. The two men were complained to have been joined, 
and, I am going to address the task force that created the 
Project Safe Bakken and the work that has been done. I 
mentioned one matter and that was the Armstrong case. The 
partnerships that were created in that task force in order to 
dismantle that drug trafficking organization, it involved 
agents--and there were scores of law enforcement that were 
involved. The DEA was involved, FBI was involved, Montana DCI, 
Sidney Police Department, the border patrol, Sweetgrass County 
Sheriff's Office and the Montana Highway Patrol, and we have 
something good that is going on in terms of law enforcement 
with respect to that task force and that is the only way that 
we can address these issues.
    Senator Tester. OK. Mike Gottlieb or Scott Vito, do you 
have anything to add as to far as what you are seeing as the 
primary criminal throughout here?
    Mr. Gottlieb. I will defer to Montanans in terms of what 
the most serious threat is locally, but I will say I think the 
U.S. Attorney makes a fantastic point here, the consequences of 
drug trafficking and what we are seeing in the Bakken region in 
terms of not just the violence, but in terms of dangers on the 
road, the public health consequences, and really as the Sheriff 
mentioned, what it does to the fabric of our communities. I 
think it shows that we need a strategy that's strong on law 
enforcement, but it is also multifaceted and it needs to take 
into consideration prevention efforts, mental health efforts, 
public health efforts, and that's what we are trying to push 
here with the Northern Border Counternarcotics Strategy and the 
National Drug Control Strategy, and that's a balanced approach, 
and we commend you all in this region for your efforts in that 
regard.
    Senator Tester. Scott, anything to add?
    Mr. Vito. I would say methamphetamine, drug crimes and the 
violent criminals associated with that trafficking in the 
Bakken area as well as across the State. You see in Billings 
the large scale methamphetamine seizures, those are destined to 
the Bakken, but they are also being distributed in Billings and 
Bozeman and Helena and those places, so the methamphetamine 
trafficking being brought into the Bakken tends to have a 
spillover affect into both North Dakota and Montana in the 
larger picture.
    Senator Tester. OK. And you might as well keep the mic, 
Scott, and anybody can add to your answer, is there, and I do 
not want to get into profiling, but is there a profile that you 
are looking at or is it--as far as the criminals, or is it 
across the board?
    Mr. Vito. It is pretty much across the board. It is 
economics really and General Fox mentioned you can buy an ounce 
of methamphetamine in California for $300 and you can bring it 
to the Bakken and sell it for $3,000, you are always going to 
have that flow into the area, and so our efforts to address 
that is pretty much what we have always done in the criminal 
investigative field. We work those cases and we try to expand 
it and go back and stop the suppliers so that larger source or 
supply doesn't make it into the Bakken.
    Senator Tester. OK. Do the rest of you feel the same way 
that it is pretty much across the board. OK. And this is for 
anybody that wants to answer it and multiple if you would like, 
we hear a lot about organized crime. I had a listening session 
up in Poplar a month ago and we heard about organized crimes 
existence here and how there's no separation. Could you talk 
about the extent of organized crime that is in this region? And 
it doesn't matter, whoever wants to talk. You have the mic, 
Scott, so you can hand it off or keep it.
    Mr. Vito. Sure. And again, we go back to the economics of 
criminal activity. Any large scale market for those things such 
as drugs would draw those elements in. We have seen an increase 
in connections to Mexican drug trafficking organizations coming 
into the Bakken directly through the State of Montana and other 
trafficking routes, so it is not just the guy on the street 
selling a rock of crack or an ounce of methamphetamine. It is a 
larger scale----
    Senator Tester. So without giving away any trade secrets 
here, is it flowing from the Mexican border up here or is it 
flowing to Canada, Mexico to Canada and back through, how's it 
getting here?
    Mr. Vito. I would say Mexican border. That is the most 
prevalent route.
    Senator Tester. OK.
    Mr. Vito. Through California.
    Mr. Cotter. Senator, I will give an example of a case that 
was prosecuted in 2013 in Billings by the U.S. Attorneys' 
Office. It was a case that came through the work of DEA, 
Montana DCI and Billings PD. The defendants were Alvarado and 
Martinez. They were members of the Sinaloa Cartel. They were in 
Montana for a period of only 6 months. At sentencing, they 
admitted to moving 80 to 90 pounds of meth, pure meth, into 
Montana toward the Bakken. In the debriefing, they admitted to 
400 pounds. At the time of the arrest, they had $56,000 cash, 2 
pounds of coke; 6 pounds of meth; 100 grams of heroin; 17 guns 
were seized, two of which were SKS assault style weapons; and 
it is estimated that 175 weapons were traded for drugs and 
those weapons did go south. These men were connected to high 
levels of the Sinaloa Cartel, so you know we have big City 
problems in Montana.
    Senator Tester. OK.
    Mr. Cotter. It is not what it used to be.
    Senator Tester. Pass the mic all the way down to the end to 
Sheriff Anderson. Sheriff, you have been in your position for, 
just a say a number of years, and you have seen the challenges 
that your law enforcement agency had. Could you talk about what 
the changes have been over the last 10 years, pre-Bakken to 
today, what are your officers seeing that disturbs you?
    Mr. Anderson. Obviously, the drugs and the outside 
influence and the economic opportunity that the Bakken creates 
with workers that have high wages and--but collateral to that, 
increased domestic violence calls, and those are the most 
dangerous calls for law enforcement to respond to. 
Interestingly enough, Highway 16, we were running into some 
road rage issues. Prior to the Attorney General diverting 
troopers out here, we were having some horrific accidents, 
head-ons, that were really hard on first responders and law 
enforcement, so a pretty significant uptick in that area. As I 
think about it, thefts of copper. These methamphetamine users 
that are addicted are stealing a lot of copper and so we are 
seeing an increase there, but you know I could prattle on but 
there's a brief stamp job for yes.
    Senator Tester. That's good. Attorney General Fox, in your 
testimony you talked about working with Montana Petroleum 
Association. I applaud that effort by the way, because I think 
if we can cutoff demand it really helps the situation, and if 
you can get those folks to work with your office and other 
offices or give them the tools. Can you just talk about how 
long the relationship has been going on, what's the receptivity 
of it, is there anything that the folks at the table that 
sitting with you or I or the Governor's office that can do to 
help kind of forge a partnership that would----
    Mr. Fox. Sure. I started this discussion with the Petroleum 
Association, Dave Gold, last year.
    Senator Tester. Yep.
    Mr. Fox. My experience in the private sector has been that 
when the public agencies and private individuals and companies 
put their heads together good things can come of it, so I am a 
big fan of public/private collaborations and partnerships, and 
you know we see various things that these companies who are 
working here and benefiting from the Bakken do for their 
communities, and they are usually very community oriented. They 
want to be a part of the community, and tapping into that 
mentality I thought that what a great opportunity for a public/
private partnership in a big way to get the kinds of resources 
directed to those who need them. Of course, as Montana's Chief 
Law Enforcement Officer, my primary concern is public safety, 
and so my vision on this, and I have already discussed it with 
the NDA and several other members and there are people who are 
ready to write checks, but my vision is is that it is the local 
folks who need to drive the understanding of what the needs 
are, so that's why I intend to put together a task force who 
would then identify those needs and then a foundation, because 
it is always good to have a tax write-off, for the oil 
companies and oilfield service companies and others to 
contribute to and then have that money flow directly back here. 
We would have a very defined geographical area envisioned for 
the foundation such as law enforcement, victim services, first 
responders----
    Senator Tester. Yes.
    Mr. Fox [continuing]. And the like.
    Senator Tester. Are there tools that you can give them that 
they can utilize during the interview process and hiring 
process that might be able to----
    Mr. Fox. Right. We have offered that, and to my knowledge 
we have not had our first training yet but we are setting it 
up.
    Senator Tester. OK, good.
    Mr. Fox. We want to make sure that, again, we partner on 
those things to help them make sure they are hiring folks that 
are not going to be a problem. That's good business.
    Senator Tester. Yes, exactly right. That is good business. 
The next two questions are for--are for Mike Gottlieb and Scott 
Vito and it is about jurisdictional lines of both your 
respective agencies, the FBI and the DEA, and I have noticed 
that the Bakken was split at the North Dakota border with 
Montana. As a result, and correct me if I am wrong if it is 
been changed, but Sidney's jurisdiction is in Denver; 
Williston's jurisdiction is in St. Louis, and Mike Gottlieb 
this is for you. Are those jurisdictional boundaries an 
impediment from your perspective?
    Mr. Gottlieb. I think what you are referring to, Senator, 
are the High-Intensity Drug Trafficking areas that--
    Senator Tester. Yes, that's correct.
    Mr. Gottlieb. So you are absolutely right. The State of 
Montana falls into the Rocky Mountain HIDTA, which is Montana, 
Wyoming, Colorado, Utah; and North Dakota falls within the 
Midwest HIDTA, which is based in Kansas City and includes a 
number of States in the Midwest.
    Senator Tester. Right.
    Mr. Gottlieb. And I do not believe that poses an impediment 
whatsoever. I think what we have seen and we have learned at 
ONDCP really is, and I think it is certainly true in the 
Bakken, is that no one agency, no one level of government, no 
one State is going to be able to solve these types of issues, 
and I would think the HIDTA Program and the emphasis it places 
on cooperation and collaboration is essential, and the folks in 
the Bakken, both in North Dakota and Montana, have shown not 
just a willingness to do that, but actually a demonstrated 
commitment to work together. I know the U.S. Attorney in 
Montana works very closely with his counterpart in North 
Dakota, and we see those two HIDTAs, both the Rocky Mountain 
HIDTA and the Midwest HIDTA working together on a regular basis 
so we are very pleased with that.
    Senator Tester. So you are not getting conflicting 
direction from St. Louis or Denver?
    Mr. Gottlieb. No, we are not; and in fact, I mean although 
it is actually Kansas City and Denver is where the management 
offices would be for those particular HIDTAs.
    Senator Tester. Right.
    Mr. Gottlieb. But in both cases it's local control.
    Senator Tester. OK.
    Mr. Gottlieb. I mean it is really an effort governed by 
folks in Montana and North Dakota to work collaboratively, and 
the direction's not coming from Washington, D.C., Kansas City, 
or Denver in terms of how to operate.
    Senator Tester. I got you, and I have talked to FBI 
Director Comey, and I would ask you the same question, but he 
gave me the same answer that doesn't matter; that border 
doesn't matter; the region doesn't matter; that it is seamless.
    Mr. Vito. That's correct. That's how we look at it. The 
task force approach working with State, local and tribal 
partners bringing everyone to the table. There's so few in 
Eastern Montana and Western North Dakota that we all have to 
work together to get the job done so----
    Senator Tester. That's good. And of course you know, I know 
we have a staff member from Hoeven's office here, I hope he's 
still here, yes, he's still here. I just want to make sure that 
I put a lot of pressure and make sure those FBI agents came to 
Montana and not to North Dakota, but no, just kidding. 
[Laughter.]
    The fact is is that the problem is there in North Dakota as 
well as Montana and it is a serious problem. Scott, could you 
talk about, I do not know what's going on as far as staffing in 
North Dakota, but I do know that, and we talked about it 
literally before this hearing started, about the term that the 
person's here, how long they are here. Is there any plans to 
extend on a regular basis the staffing here in Eastern Montana 
by FBI agents?
    Mr. Vito. Right. We have been staffing probably 60 to 90 
day TDY's over the course of the last year.
    Senator Tester. Wait, say that one more time.
    Mr. Vito. Sixty to 90 day TDY's over the course of the last 
year. Moving forward from probably, hopefully, November time 
period we are going to be looking to a 12 to 18-month TDY time 
period.
    Senator Tester. OK.
    Mr. Vito. That will allow more continuity and more cases to 
be developed, and longer termed cases.
    Senator Tester. OK. That's good. And can you talk about, 
and maybe you can and maybe you can not, can you talk about the 
FBI's long-term plan for agents in this region, and I am 
talking about North Dakota and Montana. Do they have plans to 
put more agents into this area?
    Mr. Vito. Right. The process is ongoing as I am sure you 
are well aware after talking to Director Comey. Both sides will 
have agents working the crime problem. We do not know exactly 
how many and where yet, but it is definitely a commitment from 
the FBI to maintain agents in the Bakken region.
    Senator Tester. And you do a regular assessment on need I 
would assume?
    Mr. Vito. We do.
    Senator Tester. And do you bring in local law enforcement 
when you do that assessment and highway patrol and let me put 
it this way, do you bring in all your collaborators when you do 
that assessment?
    Mr. Vito. Right, absolutely. We engage in conversation with 
all of our partner agencies in the area.
    Senator Tester. Are the Tribes a part of that, too?
    Mr. Vito. They are.
    Senator Tester. OK. Thank you very much. Just hang on here 
for a second. Mike Cotter, I want you to talk a little bit 
about, it was touched on I think by Mike Gottlieb, I want you 
to talk a little bit about your coordination efforts with your 
counterpart in North Dakota when it comes to meth, heroin, 
violent crimes. Are you able to connect up with those folks and 
have regular conversation? Is that something that you do or is 
it something that you do only when it looks like it's 
absolutely necessary. I just kind of want to get the idea on 
what kind of communication is going between the U.S. Attorney 
Offices in the respective States.
    Mr. Cotter. I have Purdon on speed dial.
    Senator Tester. You have what now?
    Mr. Cotter. I have Tim Purdon on speed dial. [Laughter.]
    He is very accessible as am I to him. So we speak often on 
various issues whether it is Bakken or Indian Country or 
anything along those lines or border issues, but I think the 
sharing of intelligence under the umbrella project Safe Bakken 
between North Dakota and Montana through the, like in Montana 
schematic, and through Montana DCI and through its counterpart 
in North Dakota, the Bureau of Criminal Investigation, as well 
as the sharing of intelligence between FBI on both sides, DEA 
on both sides, ATF----
    Senator Tester. Yes.
    Mr. Cotter. It is ongoing. And I can tell you, Senator, 
that there are agents from Montana who are members of the 
Bureau, members of ATF, and members of the DEA that actually 
operate in North Dakota; they do.
    Senator Tester. OK.
    Mr. Cotter. And it's to get the job done.
    Senator Tester. Good. Project Safe Bakken included a grant 
and I will get this title right, ``Special Assistant United 
States Attorney for Fort Peck''.
    Mr. Cotter. Correct. That's is from the Office on Violence 
Against Women (OVW).
    Senator Tester. Right.
    Mr. Cotter. Office on Violence Against Women, yes. The same 
is true for Fort Berthold.
    Senator Tester. OK. And so basically this would be a tribal 
prosecutor----
    Mr. Cotter. Yes.
    Senator Tester [continuing]. To Federal crimes on the 
Reservation done by your office, right?
    Mr. Cotter. Well, that's correct, but that individually 
will also be a tribal prosecutor who will prosecute cases in 
Tribal Court if there is an event or a case where it would get 
prosecuted in Federal court.
    Senator Tester. Is that person currently hired?
    Mr. Cotter. The position has been posted but not yet 
filled. There is also one over at----
    Senator Tester. Fort Berthold?
    Mr. Cotter. Yes.
    Senator Tester. And so the person has already been hired? 
Are they currently working? I mean they are there?
    Mr. Cotter. Yes, they are.
    Senator Tester. Well, that's good news then. Who is it? Can 
you tell me who it is?
    Mr. Cotter. I do not recall the young man's name, sorry.
    Senator Tester. All right, sounds good. This is for Mike 
Gottlieb. I don't think this is a fair comparison, but I am 
going to ask the question anyway, can you talk about the 
differences in anti-trafficking operations between the U.S. 
Canadian border and the U.S. Mexican border?
    Mr. Gottlieb. I think, and it is a tricky question, I think 
the concept remains the same. I think the key is cooperation 
between the U.S. Government and our law enforcement officials 
and folks in Canada and folks in Mexico, and what I can comment 
on specifically are our collaboration, our partnership with our 
Canadian partners because I think that's essential for where we 
sit today and we could not be more pleased. I think the 
T3National Northern Border Counternarcotics Strategy, T1 sets 
forth a whole number of action items and a whole number of ways 
which we in the United States collaborate with our Canadian 
partners both in terms of integrated border activities, in 
terms of shared personnel, so we think the concepts remain the 
same and are very pleased with our partnership with the 
Canadians. In terms of drug trafficking, I think as Mr. Vito 
said, some of it varies in terms of where drugs are coming 
from, dependingon what particular substances and whether they 
are trafficked across the Southern border or whether they are 
trafficked from the Northern border down into the United 
States, and I defer to Scott on those particular issues, but 
the general concepts remain the same and the key is 
partnership.
    Senator Tester. OK, good, thank you. This is a question for 
Cotter and Fox and will probably be the last one. We will go to 
Tim Fox, Attorney General. What are the most pressing needs for 
prosecutors and aid workers in the Bakken to be able to most 
effectively address the sexual violence issue?
    Mr. Fox. Address what? I'm sorry.
    Senator Tester. Domestic and sexual violence issues.
    Mr. Fox. Well, we have identified a number of things in our 
office, and I know that the U.S. Attorney's Office has as well 
back to the Department of Justice. We believe that training is 
paramount. How do I say it? There are some old mindsets about 
how these cases should be investigated and prosecuted, and I 
think what we have been proactive in is traveling around and 
doing training for county attorneys and deputy county attorneys 
on how to successfully investigate and prosecute a sexual 
assault case. I also believe that more resources for victim 
services are absolutely imperative, and there's a shortfall and 
always has been in victim services, and we need to make sure 
there are more professional resources available there for all 
victims of crime, but in particular sexual assault, domestic 
abuse and those kinds of things. One of the things that we are 
going to ask the legislature to do in this next session is 
designate within our Prosecution Services Bureau a Sexual 
Assault Prosecution Unit. We have those kinds of units for 
other types of crimes. We have seen I think such a need here in 
Montana and across the Nation for those kinds of services and 
that type of training and the right personnel that we want to 
make it a priority at the Department of Justice; and really 
quickly if I can say I anticipated a question that you didn't 
ask.
    You asked the last panel, you know, what are your greatest 
needs and your top priorities; from our perspective from the 
Federal Government, more resources for the FBI and U.S. 
Attorney's Office in particular. I think we need additional 
prosecutors, and I hope Mike would agree with me in his office. 
We certainly do need those FBI agents. I think it would be best 
stationed here in Sidney. That's where they have been. They 
have worked hard here we want to see that continue.
    And then last, Senator, you and I and our offices have 
worked on the penalizing that we get, particularly with Federal 
funds to go to our drug task forces.
    Senator Tester. Yes.
    Mr. Fox. We get penalized under the Sex Offender 
Registration Notification Act (SORNA), under the Prison Rape 
Elimination Act (PRETA), and under the National Institute for 
Background Check System (NICS). All of those penalties, if they 
are assessed this year or the next fiscal year will amount to 
about $120,000 to money that will not go to our drug task 
forces. Our local agencies are strapped; they need the help. If 
there's a way to have a moratorium on those penalties, Senator, 
we would sure appreciate it.
    Senator Tester. Amen to that, Attorney General. I 
appreciate you bringing those points up. It is very important, 
and you know as well as I do the kind of services your office 
offers and every one of these costs money. It doesn't happen by 
accident. It happens with vision and you got to have some 
resources, so I appreciate you bringing that point up, but I'm 
sure Cotter will disagree. [Laughter.]
    No, I know he won't; but let's get back to the pressing 
need for prosecutors and aid workers when it comes to domestic 
and sexual violence, if you could touch on that, and then if 
you want to respond to the Attorney General you sure may.
    Mr. Cotter. Thank you, Senator. With respect to sexual 
assault and domestic violence, jurisdictionally, those matters 
fall to us if they occur on Tribal lands or in Indian Country, 
and we are within my office we are sufficient number of aides 
because we have an aide assigned to each Reservation to handle 
matters. We have victim/witness people in our office. The FBI 
has victim/witness specialists who work with victims until the 
case is indicted and comes to our office. The BIA is also 
involved and tribal police. On each of our Reservations, we 
have child protective teams that meet, SART teams as well as 
NDT; those are a group of professionals; law enforcement, 
lawyers, county attorneys as well as healthcare providers who 
identify people who are either in terms of need or help or 
perhaps victims of assaults. If an assault occurs off tribal 
lands, it becomes a county matter that has to be dealt with by 
local county attorneys with perhaps assistance from the Montana 
Attorney General.
    Senator Tester. Right.
    Mr. Cotter. There was this struggle that we have, quite 
honestly, with respect to staffing. It was during the period of 
sequestration. We were down a number of attorneys. Today, I can 
tell you we are allocated 26 FTEs, we have 25 on board.
    Senator Tester. Yes.
    Mr. Cotter. We certainly are keeping pace with prosecutions 
as they are coming forward. I believe that in the next 12 
months, I have made this statement publically and I will make 
it again, I have learned that drugs or narcotics cases will be 
coming into our office, specific of the Bakken. We will 
probably incite 100 individuals in the next 12 months, maybe 
125. That's not to say that if I was offered another FTE I 
would take it.
    Senator Tester. Yes.
    Mr. Cotter. And I would also add a staff person to also 
help.
    Senator Tester. Yes. Well, thank you and thank you all for 
your testimony. Thank you for your correct answers to the 
questions. I very much appreciate the work you do. You guys 
have an incredibly tough job on all levels, and the fact is 
that I think that you have touched on the synergy that happens, 
and we have touched on some of the things that we are lacking, 
whether it's jails, whether there's a number of things, but the 
truth is, is that you guys do a great job and I just want to 
thank you for the work that you do. Every one of you have 
stepped up to the plate and done a job that we all could be 
proud of as policymakers, so thank you all very much and thanks 
for your time today.
    Mr. Cotter. Thank you, Senator.
    Senator Tester. You bet; thanks, Mike. And as this panel is 
dismissed, we are going to go to our final panel of the day 
which includes Tony Preite from the USDA; Mike Tooley from the 
Department of Transportation; John Dynneson from the Richland 
County Sheriff's Office; Paul Groshart, Richland County Housing 
Authority; and Commissioner Loren Young from Richland County, 
if you guys would kind of meander your way up.
    Senator Tester. So the last Panel if we could get the folks 
to come on up and I want to thank you guys for waiting around. 
We are saving the best for last here, obviously. It is pretty 
tough to beat the last two panels, but you guys will do just 
fine. This panel will speak about infrastructure challenges 
that have arisen for the explosion in the Bakken. 
Infrastructure covers a lot of different things and we have a 
lot of different perspective up here. First we have Tony Preite 
who is State Director of the Montana Rural Development Program 
for the Montana USDA. In that capacity, he oversees that 
office's grants and loan programs and coordinates with State 
and local officials on infrastructure and economic development 
projects important to Montana. Tony has an incredible 
experience in economic development in Montana. No one can quite 
do what he's done because he's been at it a while, more than 50 
years serving the State in various roles including a period 
with the U.S. Department of Commerce; the Montana Department of 
Commerce; and Bearpaw Development in Havre, Montana. Thank you, 
Tony. We look forward to your testimony.
    We also have Mike Tooley who is Director of the Montana 
Department of Transportation (MDT). He serves on the U.S. 
Department of Transportation National Freight Advisory 
Committee. Prior to taking the helm at the Montana Department 
of Transportation, Mike served the Montana Highway Patrol for 
28 years, including four as Colonel. Mike, thank you for your 
service, thank you for being here today.
    We have John Dynneson. Is that correct, John?
    Mr. Dynneson. That's correct.
    Senator Tester. Did I get you right? He's the Deputy 
Sheriff with Richland County Sheriff's Office here in Sidney. 
He also serves as coroner for Richland County and is president 
of the Richland County Law Enforcement Association. Previously, 
John worked approximately 25 years with the Sidney Police 
Department. He is also involved with various groups within the 
community including Richland County Coalition Against Domestic 
Violence and the Foundation ofCommunity Care. John, thank you 
for taking the time to be with us today.
    Mr. Dynneson. Thank you, Senator.
    Senator Tester. Paul Groshart is the Executive Director of 
the Richland County Housing Authority. You have a big job. It 
was created in 1950. It is the largest affordable housing 
provider in Eastern Montana. Paul first worked on affordable 
housing in 1986. He has served as president of the Montana 
Association of Housing and Rehabilitation Organization and was 
a trustee of the Public Housing Authority Directors 
Association. He served as a member of the Sidney City Council 
for 8 years and was council president for two of those years. I 
want to thank you for being here today, Paul.
    And finally, Loren Young, Commissioner of Richland County. 
Among his priorities as chairman is addressing the counties 
infrastructure needs, particular affordable housing. We 
appreciate that. Loren has served on numerous boards and 
committees in Richland County prior to running for his seat as 
commissioner including the Montana Oil, Gas and Coal Counties 
Board. Loren is a fourth generation agricultural producer 
farming for over 40 years with his farmer, with his father, and 
now with his son. Congratulations on that. And, Loren, I 
understand you got harvest done. That's always a good feeling. 
It's good to have you here.
    Mr. Young. Back down to normal now.
    Senator Tester. There you go. Tony Preite, you have the 
floor.

 TESTIMONY OF ANTHONY PREITE,\1\ STATE DIRECTOR, UNITED STATES 
   DEPARTMENT OF AGRICULTURE, MONTANA OFFICE OF RURAL MONTANA

    Mr. Preite. Thank you, Senator Tester. I am pleased to have 
the opportunity to discuss the Bakken and the work of my 
agency, USDA Rural Development. First, I would like to express 
my appreciation to you for continuing to focus on the 
challenges and opportunities that oil and gas development have 
provided to rural Northeastern Montana and Western North 
Dakota. For most of my career I have studied the needs in 
economic development of State and local economies. While 
activity in the Bakken has created much needed jobs in a region 
that has been long underserved, it has also brought additional 
challenges to the area. The sense of excitement about the 
energy boom has today been replaced with deep and intense 
conversations about issues of housing, traffic, crime, water 
and waste and other social needs. USDA Rural Development 
Programs play a key role in investing in rural economies. Rural 
development staff and programs help deliver safe and affordable 
housing, support for business growth, community facilities for 
health and safety, reliable electricity for our homes and 
industry, broadband to expand the access to education, 
healthcare, businesses and social services and clean, safe 
water to support healthy rural communities. The USDA Rural 
Development has a nationwide loan for over $200 billion in 
direct and guaranteed loans. Continued investment in key 
infrastructure is essential to ensuring rural America is a 
place where families and business can grow and thrive. Since 
2009, USDA Rural Development in Montana has invested more than 
$37,500,000 in single family housing in the Bakken area.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Preite appears in the Appendix on 
page 102.
---------------------------------------------------------------------------
    Over that same period in the Bakken counties in Montana and 
North Dakota, USDA Rural Development has supported 22 new or 
improved broadband service projects for residents, schools, 
hospitals and businesses. We have funded 27 water and waste 
water projects and provided grants and loans to assist 60 small 
and midsize businesses. Local development corporations and 
cooperatives in the region have also been served. Thanks to the 
new tools in the 2014 Farm Bill aimed at improving program 
delivery, we will be able to continue to build on these 
investments. Over the course of the last 2 years, USDA Rural 
Development has participated in numerous meetings with local, 
State and tribal leaders. We have tried to maintain a leading 
role in planning and development sessions with community 
organizations and engaged in listening sessions throughout the 
region. These interactions make clear that technical 
assistance, coordination and community outreach are key in 
meeting the overall needs in the area.
    That is why USDA Rural Development has worked to deliver 
programs that ensure that taxpayers' dollars make the greatest 
impact. A focus on community economic development while using 
the regional strategy is our goal like in the Bakken. We can 
develop important sources of growth and help extend limited 
resources in the region by providing a set aside with 
preference for projects that are part of a regional approach as 
described in the 2014 Farm Bill, USDA Rural Development will be 
able to more effectively support rural places that are working 
in a cooperative effort to realize the long-term community and 
economic development goals.
    In Montana, USDA Rural Development has played a lead role 
in the formation of the Eastern Montana Coalition, a cohesive 
area-wide planning organization in the Bakken. The benefits of 
this Coalition are numerous including better service throughout 
the entire area, and the Coalition also provides a unified 
force and voice for the region, especially when approaching 
State and Federal leaders for assistance. As the Montana 
Director for Rural Development, I am committed to ensure that 
USDA Rural Development will continue to serve a leadership role 
in the Bakken. We also recognize the importance and fully 
support the participation and help of all other partners and 
efforts to better serve the region.
    Mr. Chairman, I appreciate your continued support for 
providing assistance to the Bakken area. USDA Rural Development 
joins you in your efforts to ensure that the residents of the 
Bakken are well-served. I hope I have provided you with some 
insight as to how USDA Rural Development has and continues to 
contribute to the Bakken, and I look forward to responding to 
any questions. Thank you.
    Senator Tester. Tony, thank you for your testimony, thank 
you for your insight. Mike Tooley, you are up.

 TESTIMONY OF MIKE TOOLEY,\1\ DIRECTOR, MONTANA DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Tooleey. Mr. Chairman, good morning. Thank you for 
being here today and thank you for asking me to testify before 
the Committee and before you. I think it is terrific that you 
are here to hold this field hearing and outreach session in 
Montana's active Bakken region. It has obviously made a big 
difference in how the Montana Department of Transportation does 
business. Our focus is to provide safe and efficient 
transportation to the motoring public and to support economic 
activity here in the Bakken, but for as it is almost always the 
case for any infrastructure agency, our needs vastly outpace 
the resources that are available, so it is essential that we 
are making the best most timely decisions. To provide some 
scale to the issue, our MDT own infrastructure of 12,000 road 
miles in the State of Montana.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tooley appears in the Appendix on 
page 107.
---------------------------------------------------------------------------
    Nearly 30 percent of that is within the Bakken region in 
the Glendive district. The numbers that I am going to give you, 
Chairman, are related only to MDT owned infrastructure, and 
please be aware that there are also major impacts to local 
streets and county infrastructure. What have we seen? We have 
seen a significant increase in traffic volumes largely made up 
of heavy truck traffic. We have seen the increase in truck 
traffic as much as 32 percent between 2007 and now. Pavement 
designs are largely driven by the heavy truck traffic and this 
kind of an increase can drastically impact the life and 
condition of pavement. As a matter of fact, as part of the 
Bakken Impact Study that we finished in 2012, we determined 
that the MDT District 4, which we are in today, has an 
estimated additional $52 million dollars in annual need over 
the next 20 years to address pavement distress.
    That is just our infrastructure. In addition to pavement, 
the increased volumes of high truck traffic also have impacts 
on roadway operations and safety and I will address some of 
those things that we have done to address those shortly. We 
have also had a hard time in the Bakken attracting and 
retaining employees and contractors in this district. While on 
a statewide, State employee basis, this may not be an issue; 
unfortunately, I am the exception. I employ a large number of 
truck drivers that have CDLs; I employ mechanics; I employ 
welders and they are all very attractive to the oil patch. As a 
matter of fact, I have seen a statistic that says that they are 
hiring up to 30 CDL holders a week, and one of the first places 
they will come is where somebody has a CDL already, and 
unfortunately, that may be one of my snowplow drivers and that 
becomes an impact to the community.
    Once we have trained and hired staff, they can easily move 
on to better paying jobs in the oil development industry. One 
of the things that we are doing to address that is workforce 
development through tribal colleges, and specifically on the 
Flathead Reservation and Fort Peck Community College, MDT does 
provide grants that trains individuals to hold jobs in our 
agency or in that type of line of work. We think it is 
important to develop those technical skills and keep those 
workers working right here in the Bakken in a place that they 
will probably stay. Increased competition, however, isn't 
limited just to our staff, but it also includes raw materials 
and private engineering and construction services. We have seen 
a massive increase for key materials which drive up the project 
costs or decreases the buying power that we have in comparison 
to other districts. We have had instances where prime 
contractors have come out here to work. We see few or no bids 
from contractors or subcontractors for highway projects due to 
the increased demand in the area; and so now the prime 
contractors have to bring more of their staff in instead of 
hiring a subcontractor increasing immobilization costs and the 
entire project costs more. It is important because we want to 
make the right decisions and continue to invest in 
infrastructure across the State. Connectivity for us is 
important. We don't want to have one district have great roads; 
the next one not have good roads. It is very important and 
through the process that we use, we use the Performing Program 
Process to manage our assets and that allows MDT to make 
appropriate investment decisions, and this process directs the 
longer term direction of investment for MDT. And in fact, some 
of the recent P-3 recommendations are directing more funding to 
this district for system improvements. And in response to 
increased truck traffic, our agency was able to modify pavement 
design in several recent and upcoming projects to make sure 
that they last longer and accommodate the added truck traffic. 
Studies show that both short term and easily implemented 
improvement projects and long-term needs are there. We have 
identified some easily implemented improvements that address or 
head-off some emerging issues, and in this area specifically we 
did a quarter study on Montana 16/200, Glendive to Fairview. It 
was a 60-mile study along with a safety audit that caused us to 
take some immediate action including installing some passing 
lanes that might not have been the original design; installing 
centerline rumble strips; and increasing the shoulder widths. 
We also, as part of the Safety Study, determined that we needed 
to normalize or match the speed limits in that quarter between 
passenger vehicles and trucks, and so now the entire quarter 
has the same speed limit no matter what you are driving, and I 
think that has contributed greatly to safety.
    In addition to short-term improvements, MDT's district 
staff has identified many projects to address area needs. Right 
now on the books we have over 100 miles of recently completed 
and planned projects in the Glendive district through 2019 for 
a total investment of about $50 million dollars. Many of these 
investments are influenced by the energy impacts. However, the 
most responsive aspects of our program is in maintenance, and 
we have recognized need to invest more State funds in that area 
and $6 million more that could have previously been allocated 
to other districts is now coming to the Glendive district to 
address that; however, our efforts extend beyond highways. We 
fund law enforcement for overtime patrols to arrest DUI 
drivers, and we also work with other outside entities such as 
Burlington Northern Santa Fe Railroad. We are investing $5 
million dollars in this area to upgrade rail crossings. That 
includes installing stop signs, flashing lights and new 
crossbuck for $5 million dollars. We also pay very much 
attention to air transportation through the essential air 
service. We have seen a 27 percent increase in air traffic and 
air travel in this region thanks to the Bakken. I heard 
Chairman Stafne speak to folks that can't get around, and we 
invest $6.5 million dollars per year statewide in transit to 
make sure that folks who may not have their own transportation 
have those needs met.
    To close, we anticipate the impact in the Bakken to 
continue for at least two more decades and recognize that 
additional funding and attention to our infrastructure is 
necessary. To maintain the condition and operation of our 
systems, we feel that funding levels must at least remain where 
they are with impacts for inflation. Montana's transportation 
infrastructure is dependent on the continued and predictable 
Federal participation and a strong Federal investment in the 
Nation's transportation systems. These Federal programs are 
essential for our economy. In Montana, $0.87 of every 
construction project is federally funded. Supporting the 
industry, the jobs and the growth in the Bakken and ensuring 
the Nation is poised to capitalize on the investments here are 
important and that requires Federal participation, and I again 
would just like to say thank you for the opportunity to testify 
before you today. Your staff has been extremely good to work 
with. I understand that we may not see you every day, but I 
know you are involved behind the scenes in Washington and thank 
you for all you do.
    Senator Tester. Thanks, Mike, appreciate your testimony. 
John Dynneson.

TESTIMONY OF JOHN DYNNESON,\1\ DEPUTY SHERIFF, RICHLAND COUNTY 
                      SHERIFF'S DEPARTMENT

    Mr. Dynneson. Yes. Thank you, Senator. Prior to being on 
the third panel today sitting here listening to the other 
testimony, it's obvious that the testimony I provide to you 
much of that information has already been presented; however, 
there are a few points that I would like to address. A common 
theme echoed by many in this region is the need for an increase 
and experienced staff and staff that is able to afford the 
living situation in this region long enough to stay and obtain 
the necessary experience to effectively serve our communities. 
Though our sheriff's office and local police departments have 
had some outstanding individuals willing to serve our continued 
commitment to effectively serve our communities require more 
officers, jail staff and dispatchers. These are only just a few 
of employment opportunities available and necessary to 
facilitate the work our law enforcement agencies are expected 
to undertake and provide. Finding individuals willing to work 
in these areas rather than seek higher paying oilfield 
employment is difficult.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dynneson appears in the Appendix 
on page 110.
---------------------------------------------------------------------------
    Besides finding an experience person and locating others 
willing and able to dedicate adequate time to train persons, 
multiple obstacles still stand in the way. Housing 
infrastructure--though slowly increasing--is still lagging. 
Increased construction of housing units does not remedy the 
issue of affordable housing. With housing prices at alarming 
rate in this region in relation to comparable housing in other 
parts of the country, our local agencies and departments are 
faced with budget concerns and the need to provide further 
monetary assistance or housing subsidies to address those needs 
of prospective and existing personnel. It is not only the high 
cost of living or the high cost of housing that is astonishes 
the people, but everything here is limited and comes with a 
price. The costs associated with living in the region including 
groceries, home repairs, vehicle maintenance and childcare, are 
unprecedented compared to many areas of the Unites States and 
our State. What the State and Federal Government may not see is 
that adequate childcare is extremely limited here in the 
region. Enticing the right recruits to join our local agencies 
is difficult. It is difficult enough without mentioning all the 
accompanying hardships that those potential employees may face 
for themselves as well as their families. Logically, the 
increase in population comes with a growth in crime.
    Increased incidences of abuse, mental health concerns, 
growing numbers of homeless and other strains on local 
infrastructures as well as other unsavory ideas such as 
organizations coming to this area that support criminal 
activity. Currently, all of our local State agencies work 
together to address the impacts on our communities. These 
agencies include Mental Health, Child and Family Services, 
Sidney Health Center, Richland County Coalition Against 
Domestic Violence and other service agencies. All of these 
agencies are affected by the same issues as law enforcement; 
concerns with affordable housing and the lack of experienced 
personnel willing and able to live and work in the area of the 
Bakken region and the lack of childcare.
    In regards to Federal agencies, I want to express our need 
that we need the assistance of the FBI here because the FBI has 
the time and the resources that are necessary to devote to the 
particular crimes of high-profile cases that the local and 
county law enforcement agencies cannot match at this time. 
Currently, the FBI rotates agents through this region based on 
temporary duty. From my observations, I believe that it would 
be helpful if FBI personnel were assigned to this region as a 
permanent position. Though our local and State officials 
continue to do a great job in their work in this region, the 
permanent FBI official would provide much needed assistance to 
the cities and counties in Eastern Montana. Besides assisting 
local law enforcement, the FBI officials would be expected to 
proactively investigate, assist in prosecuting Federal crimes 
that are committed in this area. This would primarily consist 
of but not limited to the drug investigations, human 
trafficking and white-collar crime. If permanent officials were 
assigned here, it would like require a Federal stipend or some 
type of assistance to deal with the high cost of living to this 
region. In addition to the FBI and other Federal agencies, may 
require financial and personal increases in order to 
effectively serve the Bakken area. It may not be necessary for 
those dedicated personnel to be stationed in our city or in our 
or county rather; however, setting up a task force and 
importing personnel to assist in protecting our region would be 
helpful. This increased presence would aid local entities in 
dealing with crimes that surpass the capacity of available 
local personnel and provide additional expertise and cover 
issues outside the bounds of the local jurisdictions.
    Again, Senator, I appreciate the Subcommittees' 
consideration of our testimony today and we are hopeful that 
our emphasis on these issues will lead to further assistance 
from the Federal Government and appropriate agencies. Though 
our local law enforcement personnel is dedicated to do 
everything it can to protect the residents of Richland County 
and the Bakken region, we welcome further efforts, financial 
support and additional resources in order to more effectively 
remedy the issues affecting our personnel, our agencies, and 
most importantly, the residents of Richland County and the 
residents of the region of the Bakken area. Thank you very 
much.
    Senator Tester. Thank you, John, for your testimony. I very 
much appreciate it, and you might be on the third panel but 
your testimony was very insightful, thank you.
    Mr. Dynneson. Thank you.
    Senator Tester. Paul Groshart.

   TESTIMONY OF PAUL GROSHART,\1\ DIRECTOR, RICHLAND COUNTY 
                       HOUSING AUTHORITY

    Mr. Groshart. Thank you, Senator Tester, for inviting me to 
give testimony at this hearing on affordable housing in our 
community. I apologize if this first part sounds like a teacher 
giving a lesson, but several decades ago when I did go to 
college I graduated to be a teacher, so it may sound like a 
history lesson instead of testimony, but 30 years ago Sidney 
residents would probably have known their neighbors by their 
first name, knew where they worked, how many children were in 
the family and what they liked to do for their hobbies. The 
residents of Sidney and the surrounded area were like an 
extended family, distant cousins if you will; and when families 
moved into the area they were often invited to join service 
groups, churches, chamber of commerce and school organizations.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Groshart appears in the Appendix 
on page 114.
---------------------------------------------------------------------------
    Thirty years ago also marked the end of the first oil boom 
in our county. That boom saw a span of 7 years. It brought 
high-paying jobs, but by the time it ended there were several 
reposed homes for sale, mobile home parks abandoned, trailer 
houses abandoned and infrastructure costs left unpaid by 
special improvement districts. 1984 was a long time ago for 
many, but for some of us here in the community, the economic 
collapse lasted a long time and made our community financially 
distressed for several years after that. Fast forward to the 
present and most everyone here can attest to the fact that the 
oil boom is back bigger and better, but not so much for those 
wanting to move here and make Sidney their home. Right now in 
2014, there are jobs available in our area, high-paying jobs 
that typically pay three to four times more than minimum wage. 
Someone moving to the area may very well have that job, they 
may very well have job security, but they do not have the most 
important thing they need to succeed here in the Bakken, an 
affordable place to live.
    If you are fortunate to own your own home or are in the 
process of buying a home, no doubt as a resident of Sidney, you 
are much better off than those who in the community who are 
renters. Those who rent now, see that the lack of rental 
housing in our community is an acute and serious problem with 
no short term solution in sight. For instance in 2013, a rental 
market study was prepared for the Richland County Housing 
Authority, and based on that study just one year ago, the rents 
for existing rental units for 2012 were rising at a rate of 5 
to 10 percent every month. The vacancy rate for privately owned 
rental properties was at 0 percent; waiting lists for private 
housing were nonexistent as turnover was rare. Furthermore, a 
more followup market study that we did in 2014 revealed that 
the same units that were filled prior to the year 2000 had rent 
increases in 2012 and 2013 were now increasing their rents from 
30 percent to 300 percent after a vacancy occurred or when a 
lease expired. This vast increase in rent puts the local 
working families in jeopardy of losing their rental housing 
because rents can now exceed 50 percent or more of the take-
home pay. The families affected by this increase work at local 
retailers such as restaurants, hotels and stores, and they may 
even be the teachers, hospital workers, and law enforcement 
officials that we rely on.
    So who decides what is low income in our area? HUD annually 
publishes a report on median incomes for nearly every community 
in our State. Right now, the medial income for Sidney and our 
county is $70,600 for a 4-person family. This means that there 
are wage earners below that amount and wage earners above. It 
is not the average, but should give everyone here in this room 
an idea of wages are being paid in Richland County. If we 
compare it to Rosebud County, our median income is $10,000 
higher; compared to Park County, we are $16,000 higher; and 
when we compare the median income to places like Helena and 
Billings, we are about equal to their median incomes. Why is 
housing not a problem in Billings and Helena? The supply of 
housing in those areas probably exceeds the demand right now. 
There are more places to rent; there are different levels of 
quality; and there are far more providers of affordable housing 
such as housing authorities. Our housing authority was created 
in 1950 and has a contractual relationship with the Unites 
States Department of Housing and Urban Development to provide 
housing to low income community members.
    Who can qualify for assisted housing programs? A majority 
of our owned homes and managed properties are for people who 
earn less than 30 percent of the median income. For instance, a 
single person wishing to rent a 1-bedroom apartment from me has 
to earn less than $12,250 per year to qualify; a 2-person 
family would have to earn less than $15,730 a year; a 3-person 
family less than $19,790; and a 4 person family has to earn 
less than $23,850 per year to qualify for assisted housing.
    What can Congress do to help us? First of all, I thank 
Senator Tester for his support of the Small Housing Authority 
Reform Proposal (SHARP). As long as I have been with HUD, they 
seem to come up with acronyms for everything. Some of the 
issues that affect housing authorities, although there are only 
14 in the State of Montana, HUD has come along with a new 
requirement for a fiscal needs assessment program that would 
cost our housing authority anywhere from $30,000 to $50,000 
just to tell them what's wrong their housing. They started 
program 2 years ago called Rental Assistance Demonstration 
Program which would allow housing authorities to opt out of 
public housing and create properties that have vouchers or 
Project Based Section 8, so we'd like to have that support 
also. Of course, I know the programs have been brought up that 
there are Section 8 Programs and I would like to just address 
that. Three years ago prior to this oil boom coming, we 
administered a Section 8 rental assistance program here in the 
community and Fairview and Savage and we had 92 participants. 
What that means is we were helping pay rent for 92 families or 
single people in the three communities. We are now down to 42 
families. It's not that those 50 116 people somehow went away; 
it's that we cannot afford to pay the rents that the landlords 
are now requesting. HUD has a limit, they say 'fair market 
rent' they call it where a 2-bedroom place in Sidney is about 
$800 a month.
    Unfortunately, that doesn't ever happen anymore. The rents 
are just too high for that program to work here. So the answer 
as far as we are concerned in my area here is there has to be a 
little bit more involvement from the Federal Government to 
maybe declare us a disaster area and maybe we can hit some 
other kind of funding because the restriction for the low 
income people here as far as their income, they just don't 
exist for us. So thank you again for your allowing me to speak 
today.
    Senator Tester. Paul, thank you for your testimony; thank 
you for your work, and I know it's a difficult conundrum, but I 
think working together we could find some solutions. 
Commissioner Young, you're up.

 TESTIMONY OF LOREN YOUNG, CHAIRMAN, RICHLAND COUNTY COMMISSION

    Mr. Young. Thank you, Senator Tester, for inviting me to 
the hearing today, and I also want to make a note that you have 
a very wonderful staff to work with on the local level. You are 
very blessed with that.
    Senator Tester. Thank you.
    Mr. Young. Well, I kind of went into about four or five 
different areas here and have some statistics and since Paul 
just got done talking, I am going to also mention that we are 
doing a joint venture with the city for city and county 
employees on a little housing project and being we have the 
housing authority we kind of let Paul decide how that's going 
to go out, so I wanted to announce that kind of joint venture 
with us for law enforcement especially, for city and county.
    And my next subject I want to talk about is the workforce 
that all in common has been said here. It has been a revolving 
door. It is quite a problem to compete with government salaries 
with the oilfield, and as a county commissioner and a bean 
counter it is a very scary trend that we have seeing these 
budgets. Our county budget, our monthly payroll, is just a few 
thousand, about $40,000 to $50,000 shy of a million dollars a 
month, and conventional methods of creating revenue and taxes 
through levies and stuff, it is a tremendous burden that's 
being put on the county taxpayers that if the oil revenues are 
lost, it can't be maintained, so I am sure you already know 
that.
    The other area I wanted to talk about was our health 
department. I went back 10 years and got some statistics, and 
this is the slow part of the department, it only went up 122 
percent in 10 years, and most of the problems is the increased 
traffic flow of out-of-State workers that arrive here, but they 
are very overwhelmed, and that's the statistics for that one.
    The next one I went into was law enforcement. I went back 
10 years there. Law enforcement costs here have went up 288 
percent to the best of my knowledge fingering through that 
Black Mountain program. We also just got done building a new 
$17 million plus dollar jail. As Mr. Anderson I believe, or one 
of the gentlemen earlier stated, there have been times where 
the reports come to our office in the excess of 40 people in 
there, but it is averaging in the 30s. We built it for 24 
adults and 12 juveniles, and we pretty much had to boot the 
juveniles out and put the adults in there, and every morning 
when the county attorneys come to work and the Justice of the 
Peace that's sitting here they have to look at the list and see 
who's bad, and who's badder, and who's baddest and the bad gets 
to go home, and the badder and the baddest stays so it's really 
a problem to deal with.
    Also, with law enforcement here I asked Judge Mohr to give 
me some statistics. In 2013, Judge Mohr saw 4,773 cases across 
the bench. I did a little math on that. That's 13 cases a day 7 
days a week or 91 to 92 cases a week, and he's well on his way 
to that number and probably exceeding that number this year 
again, so just a little statistic there that I would like to 
pass on.
    All right, Mr. Dynneson talked a lot about the sheriffs and 
the law enforcement and we talked about the housing so I will 
let that be on that one. Now, I am going to move to county 
attorneys. County attorneys are overwhelmed in our county. The 
statistic that I come up with on the county attorney is 954 
percent based on the expenditures from 2004 to the new budget 
that was just submitted to me in the last month, or last couple 
months, so it's a very overwhelming thing that's going on there 
and I just wanted to pass that number on because it's just 
mind-boggling and I think these gentlemen who spoke on the 
panel before me can relate to me with the increased domestic 
violence, increased drugs and the murders and everything that's 
going on here, so I guess that's all I am going to say about 
the county attorneys' office.
    My last one that I want to talk about is roads and bridges 
and the county department. The road department has went up 743 
percent in the last 10 years based on numbers that pulled. One 
of our biggest calls and the most problem we have course is 
rough roads. That's a daily thing. But dust suppression is a 
nightmare. Everybody in the country is mad because of the dust 
that's coming in so I believe a lot of this has came back in 
the 70s, maybe 1973, the Constitution was opened up and 
something put in there about the Montanans are entitled to a 
clean and health environment. Well, they play that trump card 
on us and we literally pay out. It's in the excess of $100,000 
to $200,000 a year in buying Mag. Chloride. We have dedicated a 
whole crew of people to handle the road patrol work and the 
semis and we have even put up storage tanks and we have semi 
loads of Mag. Chloride brought to us to try to appease the 
public with all the phone calls that the commissioners and the 
road bosses get and it's really a task. We have about 35 people 
on the road department and it looks like they don't get 
anything done. It's quite a bit of deterioration on the roads 
with the truck traffic. And also, I will add here that our 
public works director had a counter out on one of the local 
gravel pits where all the gravel is heading into North Dakota 
and we are getting nothing for it but a worn out road and 
giving that man back there, Shane Mintz, a headache because of 
all the road work it requires to maintain the roads out there; 
and we have about 2,200 and some odd loads that went on that 
road in one day out there into North Dakota. Well, that's fine; 
that's business. I'm for business. But I'm going to give you a 
little statistic here that you are not going to believe me but 
that's fine; 2,280 semis in one on this road. One 80,000 pound 
semi is equivalent to approximately 2,300 ordinary vehicles 
like you and I drove to work today, so when you take the math 
and you work that out this is one day, it would be equivalent 
wear and tear on these roads of 5,244,000 ordinary vehicles on 
that one stretch of road, and I will admit that this isn't 
something that goes on 24 hours a day, it goes on and then it 
slows down, it peaks up and it peaks down, but these are the 
kinds of things that we have to deal with.
    And I also have some pictures I am going to give Senator 
Tester in regards to some accidents that have happened on some 
of the roads in my area. There's been probably 20 rollovers 
since the first of the year on some of these roads that were 
built in the 1940s. I don't want to get the Department of 
Transportation in trouble. I think they do a wonderful job at 
trying to take care of the roads, but we probably have one of 
the finest district directors in Glendive that money can buy, 
but he ain't got enough money to take care of these roads out 
here. Why can't you guys come and do a one-time infusion for 
the impacted Bakken counties and get him some money so that he 
can do something with these roads. I know that they try to go 
on the fairness issue and based on population and stuff and I 
have seen the numbers and they are fair numbers when you look 
at them, but this is the area that's creating a $200 and some 
million dollar surplus for the oil companies and I would like 
to see the Federal Government help the State out with a one-
time infusion for this Bakken region for road rebuilding.
    And on that issue, I think I am kind of running out. I know 
I have overused my time. We have also done quite a lot of work 
with the City of Savage, it's a non-incorporated town, and we 
got the sewage lagoon fully funded thanks to all the different 
agencies involved; and you asked earlier about red tape and I 
think that's an understatement. CDBG has been great to work 
with but there's a lot of red tape there, but it doesn't 
matter, I'm not singling them out because the whole works is 
just awful for red tape. I bet one of the first things that 
happened when I got into office was a Order on Consent for the 
lagoon being out of compliance and I have been working on that 
almost 4\1/2\ pushing 5 years now and we still haven't even 
moved an ounce of dirt, so that's bureaucracy and that's red 
tape that's causing all those problems and it's nightmare and 
now Sidney's facing it and it is a terrible thing that we have 
to do all this red tape, so I guess I'll go ahead and hang up 
the mic now and let you ask your questions and thank you.
    Senator Tester. Thank you, Commissioner Young, for your 
testimony. I very much appreciate it and my first question is 
probably going to be self-explanatory by the testimony that you 
have already given, but I will give you an opportunity to be 
brief and say it again, and it is a question that I asked the 
first panel and Attorney General Fox pointed out that I did not 
ask the second panel and that is from your perspective what's 
the biggest challenge you have out there because this Panel's 
about infrastructure. Who's got the mic? Commissioner, what's 
your biggest challenge as a county commissioner if you were to 
pick one?
    Mr. Young. Oh, I would say that trying to keep the roads 
caught up to the traffic is probably our worst challenge.
    Senator Tester. Yes.
    Mr. Young. Helena has done a real good job with the 
severance tax and we are ahead of the game because, just a 
little history note here, Richland County is the county that 
where the very first Bakken oil well just northwest of town 
here was drilled. Everybody thinks everything is North Dakota, 
but it happened right here just northwest of town; but roads 
are a nightmare. That's our No. 1 complaint.
    Senator Tester. OK.
    Mr. Young. And we do the best we can with what we have. I 
know we have tremendous revenue stream but it's still not 
enough.
    Senator Tester. Yes.
    Mr. Young. And of course we try to make good decisions.
    Senator Tester. Just curious, you said you have folks on 
your road crew, how much has that changed in the last 5 years?
    Mr. Young. Well, I believe 10 years ago they had about 15, 
13 to 15.
    Senator Tester. OK.
    Mr. Young. But we can't even find anybody to hire that's 
experienced.
    Senator Tester. I gotcha.
    Mr. Young. They don't want to work for what counties are 
paying. They want that $35/$40/$50 an hour.
    Senator Tester. I gotcha. Point well taken; thank you. 
Paul? Not that you are working on housing or anything, but 
what's your biggest challenge?
    Mr. Groshart. Parking my car at the office now that school 
has started. We have seen a large increase in the number of 
rental units made available in the last year, probably last 
year and half; unfortunately, as mentioned before, rents are on 
the $2,000 range or higher, and as a business person, you know 
as well as anyone, that if you are going to invest your money 
in something like housing you want to get your money back out 
faster rather than later, so as we find out when we go to the 
bank to do a project, they are talking 10 years/20 years. If 
you are going to 10 or 20 years you are going to have to get 
your money out faster.
    There's a HUD program called 221(d)(4) that is a mortgaged 
guarantee program for multi-family developers, and basically 
that helps lower the interest rate for the loan that the 
developer may go get. That is about the only alternative that I 
am aware of in the multi-family area that could help our 
community if there was a developer available that wanted to do 
this kind of housing and give him a 40-year mortgage instead of 
10 or 20 years. They could keep the rents affordable for that 
long of a period. The housing authority and our affiliate the 
Richland Affordable Housing Corporation, we own one of those 
properties that we were able to purchase with home funds in 
2001. The original owner was from Kennewick, Washington. He had 
ran out of his need to have that kind of a project. We were 
able to buy it and keep it locally, but it is a 221(d)(4) 
project where the mortgage was guaranteed. There was also a 
Section 8 rental assistance into that project so you did 
increase the amount of housing available for low income housing 
families.
    Senator Tester. OK. Thanks, Paul. John, if you were to pick 
the one thing that's biggest infrastructure priority for you 
what would it be?
    Mr. Dynneson. Probably maintaining a workforce, an 
experienced workforce, and then of course if this region 
expands we are going to have the same issues that we currently 
have is the overcrowding of the jail and workspace within the 
facility that we have.
    Senator Tester. Good, thanks. OK, Mike Tooley.
    Mr. Tooley. Thanks for asking that question, Senator, and 
it goes back to part of my response toward the end of my 
closing, it would be dependable funding, not just funding, but 
dependable. Let me explain why that is. The Department of 
Transportation knows what to do and where the problems are, we 
just don't have the resources to address it.
    It's the same issues the counties deal with. My needs are 
$1.5 billion per year to do what we should be doing. Right now, 
the State of Montana between State and Federal funds, we are 
making an investment of $440 million a year between State and 
Federal funds; and so you can do the math, we fall behind every 
year.
    Senator Tester. Yes.
    Mr. Tooley. So one of the most difficult things for us is 
our inability to plan based on short-term funding fixes. 
Congress recently transferred funds into the highway trust fund 
to make it solvent through the end of May, which was great 
because we were able to keep those construction projects going, 
but what we like to do at the DOT is get 85 percent of our 
contracts let by March.
    Senator Tester.Yes.
    Mr. Tooley. So that helps the contractors know what they 
need to buy or who they need to staff and it keeps prices low. 
Unfortunately, the two-thirds of the year is two-thirds of the 
funds and so we don't have a full year of funding and so we 
have to be pretty tentative on how let those contracts. It 
dries up costs. It keeps the contractors from hiring the 
personnel they need, buy the materials they need, and it all 
winds up in cost increases, so we need dependable long-term 
funding so we know that we can implement the plans the work 
that we know needs to be done. A one-tine infusion to the 
Commissioner's question, that might help, but the problem is 
you have to plan these projects. Administrator Mintz has a big 
backlog of projects that he could probably work on, but it 
doesn't mean because the money's here today that it's going to 
get done today, and so if that's something that Congress is 
interested in doing I think that the State DOTs would want to 
be part of that conversation to make sure that your intent is 
met at the end.
    Senator Tester. Right.
    Mr. Tooley. So basically, coming back to dependable long-
term funding, something we can plan on and actually do some 
work.
    Senator Tester. Thanks, Mike. We don't have to take this up 
today, but at some point in time I do want to have a 
conversation with you about what the capacity is in this State 
for road building. You say you have a $1.5 billion dollar need 
out there and there's no doubt about that because we have been 
all over the State and you do a great job but there is plenty 
of need. We are doing about a third of that or a little less 
than a third of that a year. If you had $1.5 billion, do we 
have the construction capability to spend that kind of money? 
You don't have to answer that now, but we do need to visit 
about it. Go ahead if you want you can, but we can talk about 
that later.
    Mr. Preite, you deal with everything from soup to nuts, 
what's the biggest infrastructure need from your office?
    Mr. Preite. Well, Senator, I think the challenge that I 
spend most of my time is trying to figure out a way to bring 
people together so we can get the most effective use of the 
resources that we have available to us out there. Now, in this 
particular area, the Bakken, no question the resources are 
scarce resources.
    That's going to take a while to get that done. Having said 
that though, as an example, Governor Bullock is proposing the 
$45 million dollar bond issue. It's got to go to the 
Legislature and then it will be available. Now, we should be 
working, and we are working, with other people to try to figure 
out the best way to at least at a minimum match that with other 
resources and leverage it so that at a minimum we have double 
that. Now, we spent a lot of time--I have to acknowledge this 
we have like 17 or 18 community meetings over a 2-year period a 
couple of years ago in the area, and what we found is every 
time we had one of those meetings at least people in the 
communities were incorporating, in-cooperating I should say, we 
need to bring, and we do it, but we need to do a better job of 
bringing everybody together to the table. Now, at USDA Rural 
Developmental I have in my work plan scheduled 10 to 12 
community meetings in this area, primarily, but throughout 
Montana in the next 18 months, and at these meetings I am going 
to go back because several years ago I had these meetings and 
whenever we would have them and have all of the departments 
there, and that's the best way to cut red tape, is to bring 
those people there and let them, the CDBG people, my people, 
the trust people, transportation people, the SBA people; we 
have them all there and we invite them all there and we are 
going to sit down, they are going to present their programs, 
and then at the end of the meetings there's going to be tables 
at the end for individual consultations so that the people at 
the meeting can best understand the resources that are there 
and other participants from the local, State and Federal 
agencies understand what other people have. Sometimes we take 
it for granted that everybody knows what's available out there; 
no, they don't. There are more resources there that are 
available that are not being tapped.
    Now, I want to make a claim here that there's enough 
resources to take care of all the problems, but we can do a 
whole lot better job than we are doing in coordinating our 
efforts. So, Senator, that's really what I am really concerned 
is that knowing that we have scarce resources; knowing we have 
these needs, we can not afford to let opportunities escape us. 
We can not afford to not take the actions necessary to get the 
best utilization and if I don't get another opportunity, I just 
need to say your staff has been terrific, just great to work 
with.
    Senator Tester. You will probably get another opportunity. 
Mike Tooley, this question has to do with staff retention and 
recruitment and it will go to John Dynneson and Loren Young 
after you get done, but your question is a little bit different 
than the question I am going to ask them, and that is do you 
have the flexibility to offer additional stipends for different 
regions of the State, particularly this one because rental 
costs are so high, as Paul pointed out, do you have the 
flexibility within your budget to be able to say, 'Yes, I'm 
going to pay this guy an extra $500 a month because the cost of 
living is so high'?
    Mr. Tooley. Senator Tester, that's exactly what we do. We, 
in the Bakken area, offer a housing stipend of $500 a month, 
and what that has done has helped at least with the retention 
side for existing employees. We are still having positions that 
are open until filled, which is something in my years of State 
government I rarely see, but we have had the flexibility 
through statewide policy to effect that type of stipend.
    Senator Tester. Good.
    Mr. Tooley. And it does work.
    Senator Tester. Perfect. John, yours and Loren's is a 
little bit different because it's two-forked: Number 1, do you 
have the flexibility? And Number 2, do you have the budget to 
be able to fulfill that flexibility if you have it? Do you 
understand what I'm saying?
    Mr. Dynneson. Yes.
    Senator Tester. If you so choose to give an additional 
stipend, are the dollars there to do it?
    Mr. Dynneson. I believe that they probably are. You need to 
understand, though, that I am here representing the Sheriff and 
I am not sure what communications he's has in regards to that.
    Senator Tester. What's said in the room stays in the room. 
OK? [Laughter.]
    Mr. Dynneson. OK. But I would applaud Mr. Groshart, the 
county commissioners and the City council for the efforts that 
they have made to start this housing project.
    Senator Tester. Yes.
    Mr. Dynneson. But what I would like for everyone to 
consider is the support people. Those are primarily for law 
enforcement. The support staff, the entry-level people that 
come in; the cooks, the janitors, the secretaries; they are 
kind of forgotten about, and a single lady with a child or a 
man with a child. a married couple comes to town they both have 
to work.
    Senator Tester. Yes.
    Mr. Dynneson. But if there's no daycare, you have that 
issue.
    Senator Tester. Amen.
    Mr. Dynneson. So I applaud them for what they are doing, 
but there needs to be some consideration for those level-entry 
that do support us as much as they do.
    Senator Tester. OK. First of all, I should have echoed that 
after your testimony, I too, want to thank you for the joint 
venture to build housing to help recruit and retain staff. I 
think that's good thinking outside of the box and I can't 
commend you enough.
    As far as recruitment and retention, that's a plumb; 
housing is a plumb, if you get this project done, to be able to 
get them in with rental prices that I assume since this is a 
joint venture the rental prices will probably be lower than 
what they are----
    Mr. Young. Yes, they would be. We are not going to be 
renting apartments out for $2,200 a month.
    Senator Tester. Right, exactly.
    Mr. Young. Most of them $1,000 down and another $2,000 
retainer.
    Senator Tester. There you go. So that's good. The question 
is do you have the flexibility to offer incentives over and 
above wages? And you are going to look at a whole package if 
you have a housing component.
    Mr. Young. I believe that we do probably have the authority 
to offer stipends and incentives like that.
    Senator Tester. Yes.
    Mr. Young. But so far we have just wanted to focus on 
basically the law enforcement because that seems to be the 
worst revolving door. We are blessed to really have a lot of 
people that are established and living here and have their 
homes.
    Senator Tester. OK.
    Mr. Young. And we have not really wanted to go down that 
road because when you start stipends you start mutiny on the 
bounty.
    Senator Tester. You got it. I understand.
    Mr. Young. But we have to come up with a price if we are 
going to work on the housing authority that allows retention of 
these employees in law enforcement without having to pay that 
high rent, but also it's fair enough that we won't have too 
many of the constant employees wanting to put their name on the 
list and move into the new housing so it's a hard balance.
    Senator Tester. OK. Pass the mic over to Paul. Paul, I kind 
of touched on this issue with the Mayor and with Leslie. When 
it comes to housing, is there enough land that can be developed 
for housing? Is that an impediment for housing in Sidney?
    Mr Groshart. Yes. The City basically was in a mode for a 
number of years where they didn't annex a lot of land next to 
the City in for any developments, and now that land is really 
becoming limited, and when you do annex in land the City's 
obligated to extend the services, meaning water and sewer, 
which adds on to the cost of the project itself, so we are 
basically landlocked in a way because we have a railroad on the 
east side of town, the hills on the west, and you either go 
north or south, and there is some prime farmland there that 
could be developed, but again it's getting the services out to 
that area. Perhaps, on your way to town you saw the new Town 
Pump out on the four corners, and that is a huge development 
there for the community, but it is outside the City limits.
    Senator Tester. I did. OK, the Bakken I think needs about 
$750 million bucks, three-quarters of a billion dollars in 
infrastructure needs. Tony, given that magnitude, given the 
fact that you have already addressed leveraging of funds and 
how critically important that is, could you talk about if there 
are other programs out there that you see that could be plussed 
up to really meet the needs of a high-growth area like this 
area?
    Mr. Preite. Well, Senator, I am sure there are other 
programs out there. That's what I was trying to get out earlier 
in that, the day is gone when just one Federal agency or one 
vendor or whatever can take care of the needs of a project. 
Now, as far as the need for the infrastructure here in the 
Bakken in North Dakota and Montana, sure it's a significant 
amount, and today, no, we don't have the resources today to 
address each one of them in an orderly manner, but we still 
need to start the process of planning; you still need to start 
the process of bringing all of the potential resources that are 
with all agencies, local, State, Federal and the private 
sector. We haven't talked very much about the private sector, 
especially, in talking about the housing. We don't have, or it 
doesn't appear that we have, and you please correct me because 
you are the expert on it, but it doesn't appear that we have 
the entrepreneurial dollars to go out and to build multi-family 
complexes or even apartments and stuff, and I know you are 
working very hard on that, but that's something we have to work 
on; that all of those fit in the same bucket.
    Senator Tester. Right.
    Mr. Preite. In the final analysis. There are resources out 
there that we have never utilized and we are going to have to 
revisit that.
    Senator Tester. Yes, that's fine, Tony, thanks. I'm want to 
go back to a point that we brought up in the second panel, the 
Attorney General was developing a plan with the Montana 
Petroleum Association on hiring and helping law enforcement 
that way and I said I applaud that effort and I do. The 
question is from a infrastructure standpoint, and I talked 
about this on the first panel, is there an avenue by which, or 
have you approached this avenue, by which you could ask the oil 
companies to pitch in a few extra bucks? Lore, do you want to 
answer that, that's fine?
    Mr. Young. Us commissioners, Mr. Mitchell is the other 
commissioner that's here in the house, we have a really good 
relationship with most of the oil companies----
    Senator Tester. Sure.
    Mr. Young [continuing]. Our road boss and the 
commissioners, but when we bring up funding they all say that 
we pay that 9-point something percent severance tax and we are 
paying that to the State and it's coming back to us and they 
feel that that's pretty much their commitment.
    Senator Tester. OK.
    Mr. Young. Now, some of them have stepped up and furnished 
trucks and equipment if we furnish material.
    Senator Tester. Yes.
    Mr. Young. There's a couple of companies that are really 
good to work with.
    Senator Tester. Yes.
    Mr. Young. But very few of them.
    Senator Tester. Yes, I gotcha. I just wanted to know just 
for the record. I appreciate that, Loren. We are going to 
bounce around a little bit. I want to get back to Mike, and 
Mike I will tell you from my perspective, I want to apologize 
that we don't have a Highway Bill done, a 5-year Highway Bill 
that is paid for and funded so you can plan, so your 
contractors you contract with can go out and buy the equipment 
they need to meet the contracts that you are going to let. That 
aside, could you talk a little bit about if the money was 
there, how do you make determinations for allocations? You 
talked about there's a $50 million dollar additional just in 
road maintenance, but how do you make that allocation? Because 
you have roads in Western Montana that need work; you got roads 
in Central Montana that need work; and you got roads in Eastern 
Montana that need work. How do you make that allocation so that 
everybody's not totally mad at you?
    Mr. Tooley. That's a good question, Senator. The way we do 
it is we look at a number of different factors, among them 
being pavement condition; we look at congestion; and we look at 
safety. Those are the three big things that we put into 
consideration, and it's a pretty complicated process to get 
there. It's managed through the districts through people like 
Mr. Mintz that when those scores or when everything is added up 
it rises to the top and those are the projects that wind up 
being nominated and put into the program. As far as how the 
actual funding distribution is, it usually comes back largely 
to pavement condition, and certain percentage then is derived 
from that. In this current case, the Glendive district is 
number 2 only to Missoula in terms of pavement condition and 
funding, and so funding has actually been shifted from some of 
the other districts like Billings and Butte and Great Falls to 
come out this way. While Missoula's remain pretty stagnant, 
Glendive has continued to rise, and so it's a really delicate 
balancing act for us.
    Senator Tester. Well, I want to thank you and I want thank 
you all for your testimony. I know we could literally go on. We 
are past noon by a bit and I wanted to kind of wrap this up by 
noon, but I just want to thank you all for your work; local, 
State, Federal law enforcement; highways; county commish; 
housing; Priete, everything that you do, I just want to say 
thank you very much for what you do. I want to thank you for 
taking the time this morning because I know you all had a whole 
bunch other stuff you could have been doing so thank you for 
your testimony; thank you for what you have done. We have 
covered a fair amount of ground here today, and the issues are 
out there. I think where we go from here is going to determine 
whether we can address the issues here in the Bakken in a way 
that meets the needs of the people here and meets the needs of 
the businesses here, and I think that there has been a ton of 
information put out on the challenges. They are many. We need 
to remember there is a lot of positive out there too to help. 
The Bakken has helped for energy sufficiency for this country, 
so we are going to take this information back; we are going to 
scrutinize it and try to compress and take it back to our 
colleagues in the Senate and continue to work with the State 
and local officials along the way to try to get some things 
done here to solve some of the problems that we have heard 
about today and there has been a bunch. For the record, this 
hearing record will remain open for 15 days for any additional 
comments or questions that you may want to put in the record; 
and with that, once again, thank all the panelists and this 
hearing is adjourned.

    [Whereupon, proceedings adjourn at 12:19 p.m.]
    
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 
                                 [all]
</pre></body></html>
